       Exiting TARP: Repayments by the
         Largest Financial Institutions




SIGTARP 11-005                     September 29, 2011
                    Office of the special inspector general
                         For the Troubled Asset Relief Program
                                   1801 L Street, NW, 4th Floor
                                      Washington, D.C. 20220

 
                                       September 29, 2011


MEMORANDUM FOR:               The Honorable Timothy F. Geithner, Secretary of the Treasury

                              The Honorable John Walsh, Acting Comptroller of the Currency

                              The Honorable Martin J. Gruenberg, Acting Chairman, Board of Directors
                              of the Federal Deposit Insurance Corporation

                              The Honorable Ben S. Bernanke, Chairman, Board of Governors of the
                              Federal Reserve System

FROM:                         Christy L. Romero, Acting Special Inspector General for the Troubled
                              Asset Relief Program

SUBJECT:                      Exiting TARP: Repayments by the Largest Financial Institutions


We are providing this audit report for your information and use. It discusses the development
and application of criteria by Treasury and Federal banking regulators for the largest banks to
repay and exit CPP and other TARP programs.

The Office of the Special Inspector General for the Troubled Asset Relief Program conducted
this audit under the authority of Public Law 110-343, as amended, which also incorporates the
duties and responsibilities of inspectors general under the Inspector General Act of 1978, as
amended.

We considered comments from the Department of the Treasury, the Federal Reserve Board, the
Federal Deposit Insurance Corporation, and the Office of the Comptroller of the Currency when
preparing the final report. The comments are addressed in the report, where applicable, and
copies of agencies’ responses to the audit are included in Appendix G of this report.

We appreciate the courtesies extended to the SIGTARP staff. For additional information on this
report, please contact Mr. Kurt Hyde, Deputy Special Inspector General for Audit and Evaluation
(Kurt.Hyde@treasury.gov / 202-622-4633), or Ms. Kimberley A. Caprio, Assistant Deputy
Special Inspector General for Audit and Evaluation (Kimberley.Caprio@treasury.gov / 202-927-
8978).




SIGTARP 11-005                                                                   September 29, 2011
Exiting TARP: Repayments by the Largest Financial Institutions

 

                                                            banks to repay and exit CPP and other TARP
Summary                                                     programs in which the banks participated.
                                                            SIGTARP’s reporting objectives for this audit were to
The first program under the Troubled Asset Relief           determine to what extent: (1) Treasury maintained a
Program (“TARP”) was the Capital Purchase                   consistent and transparent role in the TARP
Program (“CPP”), through which the U.S. Department          repayment process; and (2) Federal banking
of the Treasury (“Treasury”) invested in what               regulators consistently coordinated and evaluated the
Treasury described as healthy and viable financial          TARP repayment request. SIGTARP focused this
institutions to promote financial stability and             review on repayments by the first 13 of the 17 SCAP
confidence in the financial system. Approximately           institutions that participated in CPP to repay
80% ($163.5 billion) of all CPP funds went to the 17        Treasury’s TARP investment.
CPP banks that were subject to the Supervisory
Capital Assessment Program (“SCAP”), which stress-
                                                            What SIGTARP Found
tested the nation’s 19 largest financial institutions and
estimated future losses, revenues, and needed
reserves.                                                   In February 2009, when ARRA was enacted,
                                                            Treasury and Federal banking regulators had not
                                                            developed criteria or guidance to evaluate a bank’s
Despite the dramatic efforts of the U.S. Government,
                                                            proposal to exit TARP. Treasury published basic
in early 2009, the market still lacked confidence in
                                                            criteria in May, and on June 1, 2009, FRB issued
some of the nation’s largest financial institutions and
                                                            guidance for those banks that were subject to the
some TARP recipients complained of a stigma
                                                            stress tests (SCAP institutions) to exit TARP. FRB’s
associated with their participation in the program.
                                                            guidance primarily focused on the banks’ capital
Generally, under the original terms of CPP, banks
                                                            levels. Institutions that met SCAP target capital
were not permitted to repay Treasury and exit TARP
                                                            ratios were allowed to repay after satisfying certain
for three years. That changed with the enactment of
                                                            requirements, including issuing new common stock.
the American Recovery and Reinvestment Act of
                                                            In June 2009, nine out of the 17 SCAP banks exited
2009 (“ARRA”) on February 17, 2009, which
                                                            CPP: JPMorgan Chase & Co., The Goldman Sachs
eliminated the waiting period. In May 2009, the
                                                            Group, Inc., Morgan Stanley, U.S. Bancorp, Capital
Federal Reserve Board (“FRB”) released the results
                                                            One Financial Corporation, American Express
of the stress test for SCAP banks and FRB
                                                            Company, BB&T Corporation, The Bank of New York
subsequently issued guidance for TARP repayments.
                                                            Mellon, and State Street Corporation. The remaining
FRB’s guidance for TARP exit by SCAP institutions
                                                            eight were not yet eligible to repay. Regulators saw
focused on capital – specifically the TARP recipient’s
                                                            those institutions as weaker than the SCAP
ability to meet SCAP capital targets and its ability to
                                                            institutions that exited TARP and required them to
issue common stock in the market. Nine SCAP
                                                            meet additional criteria including raising additional
institutions quickly repaid Treasury’s investment and
                                                            capital.
exited TARP in June 2009. The eight remaining
SCAP institutions that received CPP funds were
considered to be weaker by regulators than the nine         After FRB issued new, non-public guidance on
that exited TARP in June 2009. These included               November 3, 2009, to the eight remaining SCAP
some of the nation’s largest banks, such as Bank of         institutions, some institutions immediately requested
America Corp. (“Bank of America”), Citigroup Inc.           to exit TARP, under a provision in the revised
(“Citigroup”), and Wells Fargo & Company (“Wells            guidance that permitted expedited repayment. These
Fargo”). Non-public guidance issued by FRB on               included Bank of America, Citigroup, Wells Fargo,
November 3, 2009, and agreed to by the other                and PNC Financial Services Group, Inc. (“PNC”).
regulators and Treasury, added a provision that             The November guidance provided that, subject to
would allow these SCAP banks to repay on an                 meeting criteria such as demonstrating access to
expedited basis.                                            long-term debt markets and satisfying SCAP
                                                            requirements, the remaining institutions may be
                                                            allowed to repay upon issuing at least $1 in new
As part of SIGTARP’s continuing oversight, we
                                                            common equity for every $2 TARP repaid. An FRB
performed a review of the process that Treasury and
                                                            official told SIGTARP that the 1-for-2 ratio was, in
Federal banking regulators established for the largest

SIGTARP 11-005                                                                         September 29, 2011
Exiting TARP: Repayments by the Largest Financial Institutions

 

part, based upon an assessment of the banks’ capital       Second, by not waiting until the banks were in a
levels from the recently completed stress tests.           position to meet the 1-for-2 provision entirely with
                                                           new common stock, there was arguably a missed
SIGTARP found that interagency sharing of data,            opportunity to further strengthen the quality of each
vigorous debate among regulators, and hard-won             institution’s capital base to protect against future
consensus increased the amount and improved the            losses without selling sources of revenue. Although
quality of the capital that SCAP institutions were         the 1-for-2 minimum was established as a capital
required to raise to exit TARP. FRB agreed to              buffer to allow each bank to absorb losses under
consult with the Federal Deposit Insurance                 adverse market conditions, the discussion quickly
Corporation (“FDIC”) and the Office of the                 switched to analysis of how much common stock the
Comptroller of the Currency, on repayment                  market could absorb during a frenzied period in which
proposals. That consultation often generated both          each of these TARP banks wanted to exit at that time
conflict and frustration because of varied and             based in part on news that other large banks were
occasionally conflicting policy approaches as              exiting TARP. Concerned about executive
regulators pushed back at different times on               compensation restrictions and a lack of market
repayment proposals. FDIC, exposed through its             confidence that might result from being the last large
deposit insurance fund and its emergency lending           TARP bank to exit, banks successfully convinced
program, was by far the most persistent in insisting       regulators that it was the right time to exit TARP, and
that banks raise more common stock. The checks-            that the market would not support a 1-for-2 common
and-balances that resulted from this interagency           stock issuance. There was arguably a missed
coordination helped to ensure that the nation’s            opportunity to wait until the market could absorb a 1-
largest financial institutions were better capitalized     for-2 common stock issuance, which would have had
upon exiting TARP than prior to TARP. However,             long lasting consequences in further strengthening
three aspects of the TARP exit process serve as            the quality of the banks’ capital base.
important lessons learned.
                                                           Third, SIGTARP also found that Treasury
First, Federal banking regulators relaxed the              encouraged TARP banks to expedite repayment,
November 2009 repayment criteria only weeks after          opening Treasury to criticism that it put accelerating
they were established, bowing at least in part to a        TARP repayment ahead of ensuring that institutions
desire to ramp back the Government’s stake in              exiting TARP were sufficiently strong to do so safely.
financial institutions and to pressure by institutions     Treasury Secretary Timothy F. Geithner told
seeking a swift TARP exit to avoid executive               SIGTARP that putting pressure on firms to raise
compensation restrictions and the stigma associated        private capital was part of a “forceful strategy of
with TARP participation. The large financial               raising capital early” and “We thought the American
institutions seeking to exit TARP were notably             economy would be in a better position if [the firms]
persistent in their efforts to resist regulatory demands   went out and raised capital.” Treasury’s involvement
to issue common stock, seeking instead more                was also more extensive than previously understood
creative, cheaper, and less sturdy alternatives that       publicly. While regulators negotiated the terms of
provide less short- or long-term loss protection than      repayment with individual institutions, Treasury
new common stock. Bank of America, Wells Fargo,            hosted and participated in critical meetings about the
and PNC, for example, requested expedited                  repayment guidance, commented on individual TARP
repayment, but each institution balked at issuing the      recipient’s repayment proposals, and in at least one
amount of common stock required by regulators.             instance urged the bank (Wells Fargo) to expedite its
When Bank of America, Citigroup, and Wells Fargo           repayment plan. The result was a nearly
repaid Treasury in December 2009, only Citigroup           simultaneous exit by Bank of America, Wells Fargo,
met the 1-for-2 minimum established by the                 and Citigroup, involving offerings of a combined total
guidance, combining new common stock and other             of $49.1 billion in new common stock in an already
types of capital to meet a more stringent requirement.     fragile market, despite warnings that large and
Because the regulators failed to adhere to FRB’s           contemporaneous equity offerings might be too much
clearly and recently established requirements, the         for the market to bear. While none of the offerings
process to review a TARP bank’s exit proposal was          failed, Citigroup exercised only a portion of its
ad hoc and inconsistent.                                   overallotment option, and later complained that Wells



SIGTARP 11-005                                                                                September 29, 2011
Exiting TARP: Repayments by the Largest Financial Institutions

 

Fargo’s simultaneous offering sapped demand for
Citigroup’s stock.

The lessons of the financial crisis and the events
surrounding TARP repayments and exit demonstrate
the importance of implementing strong capital
requirements and holding institutions strictly
accountable to those requirements. Some of the
nation’s largest financial institutions had too little
capital before the last crisis, a fact that not only
contributed to the crisis itself but also necessitated
the subsequent bailouts. Regulators leveraged
TARP repayment requirements to improve the quality
of capital held by the nation’s largest financial
institutions in the wake of the financial crisis, but
relaxed those requirements shortly after establishing
them. Whether these institutions exited TARP with a
strong and high quality capital structure sufficient to
absorb their own losses and survive adverse market
conditions without further affecting the broader
financial system remains to be seen. There will
always be tension between the protection of the
greater financial system through robust capital
requirements and the desire of individual financial
institutions to maximize profits and shareholder
returns. While striking the right balance is no easy
task, regulators must remain vigilant against
institutional demands to relax capital requirements
while taking on ever more risk.




SIGTARP 11-005                                              September 29, 2011
Exiting TARP: Repayments by the Largest Financial Institutions

 


Table of Contents
Introduction ................................................................................................................................................. 1 
Background ................................................................................................................................................. 4 
June 2009 Guidance and Subsequent Repayments ................................................................................... 10 
November 2009 Clarifying Guidance ....................................................................................................... 17 
Bank of America’s TARP Exit ................................................................................................................. 24 
Citigroup’s TARP Exit ............................................................................................................................. 34 
Wells Fargo’s TARP Exit ......................................................................................................................... 44 
PNC’s TARP Exit ..................................................................................................................................... 50 
Capital Quality Improved Among Bank of America, Citigroup, Wells Fargo, and PNC, but
 Pressures Remain................................................................................................................................... 56 
Conclusions ............................................................................................................................................... 59 
Management Comments ........................................................................................................................... 64 
Appendix A – Scope and Methodology .................................................................................................... 65 
Appendix B – Role of Federal Banking Regulators ................................................................................. 68 
Appendix C – Additional FAQs on Capital Purchase Program Repayment Published by Treasury
 in May 2009 ........................................................................................................................................... 69 
Appendix D – June 2009 and November 2009 TARP Repayment Guidance to SCAP Institutions ........ 71 
Appendix E – FRB Redemption Request Decision Memo ....................................................................... 76 
Appendix F – SCAP Institutions’ Exit from CPP ..................................................................................... 80 
Appendix G – Management Comments from FRB, OCC, and Treasury ................................................. 81 
Appendix H – Audit Team Members........................................................................................................ 87 




SIGTARP 11-005                                                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                             1




                       Introduction
                       The first use of Troubled Asset Relief Program (“TARP”) funds was the Capital
                       Purchase Program (“CPP”), through which the U.S. Department of the Treasury
                       (“Treasury”) made investments in qualifying banks, bank holding companies, and
                       other financial institutions in exchange for preferred stock1 (or certain debt
                       instruments)2 and warrants.3 Through CPP, Treasury sought to invest funds in
                       “healthy, viable institutions” as a way of promoting financial stability,
                       maintaining confidence in the financial system, and permitting lenders to meet the
                       nation’s credit needs. From October 2008 through December 2009, when CPP
                       closed to new investments, Treasury invested $204.9 billion in 707 institutions.
                       Approximately 80% of all CPP investments – $163.5 billion – went to the 17 CPP
                       banks that were subject to the Supervisory Capital Assessment Program
                       (“SCAP”), a joint Treasury and regulator program that stress-tested the nation’s
                       19 largest financial institutions.4

                       Despite the dramatic efforts of the U.S. Government, in early 2009, the market
                       still lacked confidence in some of the nation’s largest financial institutions and
                       some TARP recipients complained of a stigma associated with their participation
                       in the program. Under the original terms agreed to by each CPP recipient, banks
                       and other financial institutions were not permitted to repay Treasury’s TARP
                       investment and exit TARP for three years, unless certain exceptions applied.5
                       When asked about the rationale for establishing a repayment waiting period,
                       Treasury referred the Office of the Special Inspector General for the Troubled
                       Asset Relief Program (“SIGTARP”) to language published by former Treasury
                       Secretary Henry Paulson, citing the important role that CPP funds played in
                       calming markets and restoring confidence in the banking industry. On
                       February 17, 2009, the American Recovery and Reinvestment Act of 2009
                       (“ARRA”) changed the timing and conditions under which CPP recipients could
                       repay Treasury’s TARP investment. ARRA provided that “subject to consultation

1
  Preferred stock is equity ownership that usually pays a fixed dividend prior to distributions for common stock owners
  but only after payments due to holders of debt and depositors. It typically confers no voting rights. Preferred stock
  also has priority over common stock in the distribution of assets when a bankrupt company is liquidated.
2
  The debt instruments were subordinated debt, which ranks below senior debt but above equity with regard to investors’
  claims on company assets or earnings. Senior debt holders are paid in full before subordinated debt holders are paid.
  There may be additional distinctions of priority among subordinated debt holders.
3
  The Emergency Economic Stabilization Act of 2008 (“EESA”) mandated, with limited exceptions, that Treasury
  receive warrants granting it the right to purchase at a previously determined price shares of common stock for certain
  publicly traded institutions or preferred stock or debt for certain non-publicly traded institutions for which it provided
  assistance.
4
  The SCAP stress tests were a forward-looking exercise designed to estimate losses, revenues, and reserve needs. The
  tests were conducted between February 2009 and April 2009, with results announced in May 2009. Of the 19
  institutions that participated in SCAP, 17 were CPP participants. See the Background for further discussion of SCAP.
5
  For the purposes of this report, “exit” from TARP refers to the removal of restrictions placed on TARP recipients by
  EESA, either through the repurchase of securities held by Treasury or through other means of ending Treasury’s TARP
  investment in the institution.


SIGTARP 11-005                                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                2




                         with the appropriate Federal banking agency…[Treasury] shall permit a TARP
                         recipient to repay…[TARP funds] without regard to whether the financial
                         institution has replaced such funds from any other source or to any waiting
                         period.”

                         In February 2009, at the time ARRA was enacted, Treasury and the Federal
                         banking regulators had not developed criteria or guidance to evaluate a bank’s
                         proposal to repay Treasury’s TARP investment by repurchasing its preferred
                         shares held by Treasury and exit TARP. In May, the Federal Reserve Board
                         (“FRB”) released the results of the SCAP stress tests and some SCAP banks
                         immediately requested to repay Treasury and exit TARP. That month, Treasury
                         published basic criteria for CPP institutions seeking to exit TARP, and on
                         June 1, 2009, FRB issued a press release with guidance specific to SCAP banks
                         that wanted to repay Treasury and exit TARP. Institutions that met the target
                         capital ratios established by SCAP were allowed to repay after satisfying certain
                         requirements, including raising common stock through a public issuance. Those
                         that did not meet the SCAP targets were required to wait. That month, nine out of
                         the 17 SCAP banks that participated in CPP exited the program: JPMorgan Chase
                         & Co. (“JPMorgan”), The Goldman Sachs Group, Inc. (“Goldman Sachs”),
                         Morgan Stanley, U.S. Bancorp, Capital One Financial Corporation (“Capital
                         One”), American Express Company (“American Express”), BB&T Corporation
                         (“BB&T”), The Bank of New York Mellon (“BNY Mellon”), and State Street
                         Corporation (“State Street”).

                         In the fall of 2009, some of the SCAP banks remaining in TARP began
                         communicating to Treasury and the Federal banking regulators their desire to
                         repay and exit TARP. These included some of the nation’s largest banks, such as
                         Bank of America Corp. (“Bank of America”), Citigroup Inc. (“Citigroup”), Wells
                         Fargo & Company (“Wells Fargo”), and the PNC Financial Services Group, Inc.
                         (“PNC”). Some of these institutions expressed concern about the perceived
                         stigma associated with their participation in TARP as well as being subject to
                         TARP executive compensation restrictions. Treasury and the Federal banking
                         regulators engaged in discussions about revising the June criteria to provide
                         additional guidance for these SCAP banks to repay and exit TARP. The result
                         was new non-public guidance issued by FRB on November 3, 2009, which added
                         an option for remaining SCAP banks to issue a certain amount of common equity
                         to be considered for TARP repayment on an expedited basis.

                         SIGTARP focused its review on repayments by the largest CPP recipients;
                         specifically, the first 13 (of the 17 SCAP institutions that participated in CPP) to
                         repay Treasury’s CPP investment and exit TARP, with additional detail on those
                         occurring after FRB issued revised repayment guidance in November 2009.6
6
    In response to a draft of this report, FRB strenuously objected to the inclusion of a significant amount of text on the
    grounds that it was confidential and that disclosure would violate the bank supervision privilege. In doing so, FRB
    expressed concern that SIGTARP’s inclusion of certain discussion among regulators about specific repayment requests


SIGTARP 11-005                                                                                             September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                          3




                      Though they represent less than 2% of the number of institutions receiving CPP
                      funds, the repayments by the 13 institutions reviewed in this report comprise
                      approximately 81.5% of the total principal amount repaid to Treasury under CPP
                      as of August 31, 2011. According to Treasury, as of that date, 219 banks and
                      financial institutions have fully repaid Treasury’s CPP investment and exited the
                      program. Treasury had received a total of $183.3 billion (or 89.4%) in principal
                      repayments of its $204.9 billion CPP investment, and had collected an additional
                      $25.6 billion in proceeds through dividends, interest, the sale of warrants, and
                      gains on common stock investments.

                      This report examines the development of TARP repayment guidance and its
                      application by Treasury and the Federal banking regulators to the first 13 SCAP
                      institutions to exit the program.7 Specifically, the objectives of the audit were to
                      determine the extent to which:

                         Treasury maintained a consistent and transparent role in the TARP repayment
                          process; and
                         Federal banking regulators consistently coordinated and evaluated TARP
                          repayment requests.

                      For discussion of the audit scope and methodology, see Appendix A. For
                      additional information and comments from responding agencies, see Appendix G.




  might, among other things, affect FRB’s ability to maintain open communication with supervised financial institutions.
  SIGTARP respectfully disagrees with FRB’s prediction of harm and believes that the exclusion of such information
  unnecessarily inhibits transparency, and is a missed opportunity to shed additional light on transactions that involved
  billions of dollars in taxpayer money. Nevertheless, out of an abundance of caution, SIGTARP has removed some of
  the text, while reaching agreement with FRB on the inclusion of other portions.
7
  SIGTARP included in its review any SCAP institution that had repaid TARP as of December 31, 2010. Since that date,
  three more SCAP institutions have repaid and exited TARP.


SIGTARP 11-005                                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                             4




                       Background
                       By September 2008, financial markets suffered from a severe loss of investor
                       confidence. During that month, a succession of major U.S. financial institutions
                       either collapsed or approached the brink of failure, there was historic turmoil in
                       financial markets, and the Government stepped in to provide unprecedented
                       Federal assistance through TARP. On October 13, 2008, in a meeting with then-
                       Treasury Secretary Henry Paulson and other senior Government leaders, nine
                       large and systemically important institutions8 agreed to accept $125 billion in
                       TARP capital funding. These nine institutions were chosen for their perceived
                       importance to the broader financial system. The next day, Treasury announced
                       the establishment of CPP, making up to $250 billion in capital funding –
                       including the $125 billion accepted by the original nine banks the day before –
                       available to a broad array of qualifying financial institutions9 that were deemed to
                       be healthy and viable by Federal regulators10 and Treasury.

                       On October 28, 2008, the original nine financial institutions became the first
                       recipients of TARP funds disbursed through CPP. Through the program,
                       Treasury sought, in part, to “encourage U.S. financial institutions to build capital
                       to increase the flow of financing to U.S. business and consumers and to support
                       the U.S. economy.” The terms of CPP limited the amount of funding that
                       qualifying institutions could receive to between 1% and 3% of their risk-weighted
                       assets,11 up to a maximum of $25 billion.12 The original terms also generally
                       restricted institutions from repaying CPP funds within three years of Treasury
                       making the investment.13 In exchange for its investment, Treasury received


8
  The nine institutions were: Bank of America, BNY Mellon, Citigroup, Goldman Sachs, JPMorgan, Merrill Lynch,
   Morgan Stanley, State Street, and Wells Fargo. Bank of America acquired Merrill Lynch in January 2009. For details
   on the selection of these nine institutions and Bank of America’s acquisition of Merrill Lynch, see SIGTARP report
   “Emergency Capital Injections Provided to Support the Viability of Bank of America, Other Major Banks, and the
   U.S. Financial System,” October 5, 2009.
9
  Pursuant to EESA, qualifying financial institutions were allowed to participate in TARP “without discrimination based
   on size, geography, or form of organization.”
10
   The institutions participating in CPP are currently regulated by FRB, the Federal Deposit Insurance Corporation
   (“FDIC”), and the Office of the Comptroller of the Currency (“OCC”). Pursuant to the Dodd-Frank Wall Street
   Reform and Consumer Protection Act, the Office of Thrift Supervision (“OTS”) will be eliminated 90 days after its
   powers and functions were transferred to the other Federal banking agencies on July 21, 2011. Appendix B identifies
   and explains the role of each Federal banking regulator.
11
   The risk-weighting of assets is the classification of assets according to the risk of loss from investment in the asset. A
   bank’s assets are weighted according to credit risk, and some assets, such as debentures, are assigned a higher risk than
   others, such as cash or government bonds. This asset calculation is used in determining the capital requirement for a
   financial institution.
12
   In May 2009, Treasury increased the maximum amount of CPP funding that small institutions could receive 3% to 5%
   of risk-weighted assets. Small institutions were defined as those with total assets less than $500 million.
13
   Institutions that sold qualifying perpetual preferred stock or common stock for cash proceeds worth at least 25% of
   Treasury’s CPP investment to repay were excepted from this restriction. OCC determined whether equity offerings
   qualified an institution for this exception.


SIGTARP 11-005                                                                                             September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                   5




                       dividend-paying preferred stock (or certain debt instruments) and warrants to
                       purchase common stock.

                       Treasury had invested $204.9 billion in 707 financial institutions by the time CPP
                       closed to new investments in December 2009. While the 707 CPP participants
                       reflected a diverse array of financial institutions, nearly half of the $204.9 billion
                       in CPP funds were concentrated in four of the largest banks – Bank of America,
                       Citigroup, JPMorgan, and Wells Fargo – each of which received the maximum
                       $25 billion investment permitted under the program.14

                       Bank of America and Citigroup Received Additional Government
                       Support
                       Despite a public statement by Treasury and Federal banking regulators that CPP
                       was limited to healthy institutions, within months of receiving $25 billion each in
                       CPP funds, two SCAP banks – Bank of America and Citigroup – each received
                       additional TARP funds under the Targeted Investment Program (“TIP”),15 as well
                       as agreements for protection on losses of certain assets on those institutions’
                       books and records under the Asset Guarantee Program (“AGP”).16

                       In November 2008, Citigroup teetered on the brink of failure. The company
                       would lose $27.7 billion in 2008, and by November 19, 2008, its stock price had
                       dropped precipitously. With Citigroup’s survival in doubt, the Government,
                       through TARP and other means, stepped in to save it. The Government provided
                       Citigroup with an additional $20 billion of TARP funds in exchange for preferred
                       stock under TIP and a Federal guarantee of a portion of losses on a designated
                       pool of $306 billion in Citigroup assets under AGP.

                       In December 2008, Bank of America was considering terminating a planned
                       acquisition of Merrill Lynch, another CPP recipient that incurred significant
                       losses in the fourth quarter of 2008. Because Treasury and FRB officials believed
                       termination of the acquisition could potentially weaken Bank of America and
                       destabilize the financial system, they pressured Bank of America to complete the
                       acquisition and provided Bank of America with $20 billion in additional TARP
                       funds through TIP, as well as an agreement for a Federal guarantee of a portion of
                       losses on a pool of up to $118 billion in assets.17
14
   Wells Fargo was in the process of acquiring Wachovia when the institutions agreed to accept CPP capital on
   October 13, 2008. After the acquisition was completed, Wells Fargo became the fourth-largest financial institution in
   the United States by total assets.
15
   The objective of TIP was to invest funds on a case-by-case basis to strengthen the economy and protect American
   jobs, savings, and retirement security where the loss of confidence in a financial institution could result in significant
   market disruptions that threaten the financial strength of similarly situated financial institutions. The only institutions
   to receive funds under TIP were Citigroup and Bank of America.
16
   AGP was created to provide guarantees for assets held by systemically significant financial institutions that faced a
   high risk of losing market confidence due in part to a portfolio of distressed or illiquid assets.
17
   Although Bank of America’s loss sharing term sheet was negotiated in January 2009, a final agreement was never
   reached. On May 6, 2009, Bank of America requested termination of the agreement, which was terminated on


SIGTARP 11-005                                                                                               September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                               6




                       Treasury and Regulators Announced and Implemented the
                       Supervisory Capital Assessment Program
                       Despite the dramatic efforts
                       undertaken by the Government to              Supervisory Capital Assessment
                                                                    Program
                       bolster the capital adequacy of
                       financial institutions in late 2008 and      SCAP was a stress test of the nation’s 19
                       early 2009, a Treasury report prepared       largest financial institutions conducted in
                       at the time concluded that the market        early 2009 by FRB in coordination with
                                                                    other regulators and Treasury. FRB
                       still lacked confidence in some of the       designed SCAP to estimate losses,
                       nation’s largest financial institutions,     revenues, and reserve needs for these 19
                       impairing the ability of the overall         institutions under two macroeconomic
                                                                    scenarios – one that reflected a baseline
                       financial system to lend. On                 projection and another that reflected a
                       February 10, 2009, Treasury and              more severe recession than the baseline
                       regulators jointly announced a               projections.
                       Financial Stability Plan. Among other
                       elements, the plan established a Financial Stability Trust, which was intended to
                       strengthen confidence in financial institutions through, along with other
                       initiatives, comprehensive stress tests of all banking institutions with 2008 year-
                       end assets in excess of $100 billion, later named SCAP.18

                       Applying the asset threshold, regulators identified the nation’s 19 largest bank
                       holding companies for participation in SCAP. SCAP was designed to identify the
                       potential losses, resources available to absorb losses, and the additional capital
                       needed, if any, for each of the participating institutions.19 According to FRB, the
                       19 institutions subject to SCAP collectively held two-thirds of the assets and more
                       than half of the loans in the U.S. banking system. Of the 19 SCAP institutions, 18
                       participated in one or more TARP programs.20 Seventeen SCAP institutions were
                       CPP recipients, and one SCAP institution, GMAC, now known as Ally Financial
                       Inc., received funding through TARP’s Automotive Industry Financing Program.

                       Between February 2009 and April 2009, regulators performed stress tests on each
                       of the 19 SCAP institutions. On April 24, 2009, FRB published details on the
                       design and implementation of the SCAP process. According to the FRB

   September 21, 2009. Bank of America agreed to pay $276 million to Treasury, $57 million to FRB, and $92 million to
   FDIC in exchange for the costs incurred by the Government and the benefits received by Bank of America through the
   announcement of its participation in the agreement.
18
   In addition to establishing a Financial Stability Trust, the Financial Stability Plan also called for the establishment of a
   new Public-Private Investment Fund, a Consumer and Business Lending Initiative, new governance provisions and
   restrictions, Housing Support and Foreclosure Prevention, and a Small Business Community Lending Initiative.
19
   The 19 SCAP institutions were: American Express Company, Bank of America, BB&T, BNY Mellon, Capital One,
   Citigroup, Fifth Third Bancorp (“Fifth Third”), GMAC LLC (“GMAC”), Goldman Sachs, JP Morgan, KeyCorp,
   MetLife Inc. (“MetLife”), Morgan Stanley, PNC, Regions Financial Corporation (“Regions”), State Street, SunTrust
   Banks, Inc. (“SunTrust”), U.S. Bancorp, and Wells Fargo.
20
   MetLife was the only SCAP institution to receive no direct support through TARP. However, on November 1, 2010,
   MetLife purchased the American Life Insurance Company from the American International Group, Inc., which
   received money from TARP’s Systemically Significant Failing Institutions Program.


SIGTARP 11-005                                                                                               September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                7




                         description, between February and April, institutions were asked to project their
                         credit losses and revenues for 2009 and 2010, as well as reserves necessary to
                         cover expected losses in 2011, under two economic scenarios: baseline and more
                         adverse. SCAP’s baseline economic scenario reflected a consensus expectation
                         among professional forecasters on the depth and duration of the recession. FRB
                         constructed the more adverse scenario from the baseline scenario, taking into
                         account the historical track record of forecasters as well as their current
                         assessments of uncertainty for unemployment and gross domestic product. By
                         using a common set of economic scenarios and conceptual framework, regulators
                         sought to apply a consistent and systematic approach across all 19 institutions.

                         The more adverse economic scenario projected a recession that would be longer
                         and more severe than the expectations of professional forecasters. SCAP
                         institutions were required to have enough capital to meet target capital adequacy
                         ratios under the more adverse scenario. The stress tests included a common
                         equity component. By including this, Treasury and regulators acknowledged that
                         markets had heavily discounted other types of capital and emphasized the
                         importance of common equity to a bank’s capital base. A joint statement issued
                         in May 2009 by Treasury, FRB, FDIC, and the Office of the Comptroller of the
                         Currency (“OCC”) explained, “Common equity is the first element of the capital
                         structure to absorb loss and offers protection to more senior parts of the capital
                         structure. All else equal, more Tier 1 Common Capital gives a [bank holding
                         company]21 greater permanent loss absorption capacity and a greater ability to
                         conserve resources under stress by changing the amount and timing of dividends
                         and other distributions.”

                         SCAP established target capital ratios of at least 6% of risk-weighted assets in
                         Tier 1 Capital and at least 4% in Tier 1 Common under the more adverse scenario
                         projected through December 31, 2010. Tier 1 Capital is a measure used by
                         regulators to identify an institution’s stable and readily available capital, and
                         includes common equity and preferred equity elements. Tier 1 Common, a subset
                         of Tier 1 Capital, includes only the common equity elements of Tier 1 Capital.
                         According to regulators, for the purposes of SCAP, Tier 1 Common was
                         calculated by subtracting preferred stock, qualifying trust preferred securities, and
                         minority interests in an institution’s subsidiaries from the calculation of its Tier 1
                         Capital.22



21
     A bank holding company is a company that owns and/or controls one or more U.S. banks.
22
     In support of the stress tests, regulators asked SCAP institutions to provide documentation for their projected losses
     and resources, including projected income and expenses by major category, domestic and international portfolio
     characteristics, forecasting methods, and important assumptions. According to the terms of the program, institutions
     that did not meet the target capital adequacy ratios described above would have to submit a plan to raise sufficient
     capital by early November 2009 or accept additional capital through the Capital Assistance Program (“CAP”). CAP
     was created to give financial institutions access to additional capital as needed. However, on November 9, 2009,
     Treasury announced that CAP had been closed without making any investments under the program.


SIGTARP 11-005                                                                                              September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                              8




                       On May 7, 2009, FRB publicly released the results of the SCAP stress tests,
                       announcing that the unprecedented nature of the program and the conditions that
                       precipitated it led to the “unusual step of publicly reporting the findings of this
                       supervisory exercise.” Nine of the 19 SCAP institutions, including eight CPP
                       participants, were found to have sufficient capital to maintain target capital
                       ratios.23 Ten SCAP institutions, of which nine were CPP recipients, were
                       required to raise additional capital to meet SCAP requirements.24 Collectively,
                       these 10 firms were $74.6 billion short of the capital requirements, with the vast
                       majority of the shortfall pertaining to the institutions’ Tier 1 Common reserves.25
                       According to FRB, these results indicated that the institutions’ capital structures
                       were too strongly tilted away from common equity,26 and the institutions would
                       therefore need to augment their capital base by raising additional common equity.

                       FRB gave each of the 10 institutions that did not meet SCAP requirements
                       30 days to submit a detailed capital plan for reaching target capital ratios, advising
                       that wherever possible the institutions should actively seek to raise new capital
                       from private sources. In addition to issuing common stock, capital actions such as
                       converting preferred stock to common stock, selling assets, and limiting dividends
                       and stock repurchases were also permitted means of meeting the target ratios.
                       After submitting their plans, the remaining SCAP institutions had until
                       November 9, 2009, to implement their plans and meet the target capital ratios.
                       Table 1 on the following page shows the results of the SCAP stress tests.




23
   The nine institutions that were not required to raise additional capital to meet SCAP requirements were American
   Express, BB&T, BNY Mellon, Capital One, Goldman Sachs, JPMorgan, MetLife, State Street, and US Bancorp.
24
   The 10 institutions required to raise additional capital to meet SCAP requirements were Bank of America, Citigroup,
   Fifth Third Bancorp, GMAC, KeyCorp, Morgan Stanley, PNC, Regions Financial, SunTrust, and Wells Fargo. With
   the exception of GMAC, which did not participate in CPP, each of the 10 SCAP institutions required to raise
   additional capital met the SCAP requirements by the November 9, 2009, deadline. Rather than accessing CAP to
   address the shortfall, GMAC received capital through the Automotive Industry Financing Program.
25
   After taking into account completed or contracted capital actions and the effects of first quarter 2009 operating results.
26
   The capital structure of some SCAP institutions relied heavily on preferred equity, which have debt-like characteristics
   and do not provide the same level of protection provided by common equity.


SIGTARP 11-005                                                                                             September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                         9



                  TABLE 1
                  SCAP RESULTS
                                                                                        Capital Raise
                                                             TARP Program                Required by
                  Institution                                  Participation             SCAP ($ bn)
                  Bank of America                                   CPP, TIP                      $33.9
                  Wells Fargo                                            CPP                       13.7
                  GMAC                                                   AIFP                      11.5
                  Citigroup                                  CPP, TIP, AGP                           5.5
                  Regions                                                CPP                         2.5
                  SunTrust                                               CPP                         2.2
                  KeyCorp                                                CPP                         1.8
                  Morgan Stanley                                         CPP                         1.8
                  Fifth Third                                            CPP                         1.1
                  PNC                                                    CPP                         0.6
                  American Express                                       CPP                         0.0
                  BB&T                                                   CPP                         0.0
                  BNY Mellon                                             CPP                         0.0
                  Capital One                                            CPP                         0.0
                  Goldman Sachs                                          CPP                         0.0
                  JPMorgan                                               CPP                         0.0
                  State Street                                           CPP                         0.0
                  U.S. Bancorp                                           CPP                         0.0
                  MetLife                                 Did not participate                        0.0
                  TOTAL                                                                           $74.6
                  Sources: FRB and Treasury.
                  Note: In stress testing Citigroup, regulators counted as common stock the amount of
                        private and Government preferred stock that Citigroup announced it would convert
                        to common stock, though the conversion was not finalized until after the SCAP
                        results were announced.




SIGTARP 11-005                                                                                             September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                           10




                         June 2009 Guidance and Subsequent
                         Repayments
                         This section describes the development and the issuance by regulators in
                         June 2009 of guidance for SCAP institutions seeking to exit TARP, as well as the
                         repayments by certain SCAP institutions in June 2009. The eight institutions that
                         met SCAP capital targets at the time of the stress tests, and a ninth that met the
                         targets shortly thereafter, applied to repay Treasury and exit TARP. All nine
                         were approved by FRB after issuing sufficient common equity and meeting the
                         other requirements outlined in the June 2009 guidance.

                         In early 2009, while Treasury was making additional TARP investments in some
                         institutions, ARRA removed the three-year repayment waiting period governing
                         CPP investments.27 A few TARP recipients sought to repay in the weeks
                         following ARRA’s enactment, and during this time Treasury published basic
                         guidance advising institutions to notify their primary regulator of their desire to
                         repay TARP. Treasury also began meeting with regulators to discuss criteria and
                         procedures for evaluating applications to repay and exit TARP.

                         Between February 2009 and June 2009, Treasury and FRB issued general
                         guidance on TARP repayment, developed in coordination with FDIC, OCC, and
                         OTS. In May 2009, Treasury published answers to frequently asked questions
                         outlining the requirements and criteria that applied broadly to all 707 institutions
                         that would participate in the program, and specified that additional requirements
                         would apply only to SCAP institutions. FRB later elaborated on repayment
                         guidance pertaining to SCAP institutions in June 2009 through guidance
                         specifying that only institutions that met the SCAP target capital ratios and other
                         criteria were eligible to repay and that each institution applying to do so would
                         also have to demonstrate access to equity markets. Figure 1 on the following
                         page is a timeline of key events related to the development of the repayment
                         guidance.




27
     ARRA, enacted on February 17, 2009, provided, “subject to consultation with the appropriate federal banking agency,
     if any, [Treasury] shall permit a TARP recipient to repay [the CPP investment] without regard to whether the financial
     institution has replaced such funds from any other source or to any waiting period.”


SIGTARP 11-005                                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                                                                                       11



FIGURE 1
DEVELOPMENT OF TARP REPAYMENT PROCEDURES AND GUIDANCE
(FEBRUARY 2009 - JUNE 2009)
 PROCESS FOR ALL CPP PARTICIPANTS




                                                                                                                            Mar 4, 2009                       May 2009
                                                                                                                            At standing meeting               Treasury publishes a
                                          Feb 17, 2009                Feb 18, 2009                  Feb 26, 2009            among regulators and              second list of FAQs
                                          Congress enacts             At standing meeting among     Treasury publishes a    Treasury, Treasury                on the repayment
                                          ARRA, which permits         regulators and Treasury,      list of FAQs on CPP     outlines logistics and            process, providing
                                          institutions to repay       repayment procedures are      repayment, excluding    regulators discuss                greater detail on
                                          TARP funds subject to       discussed, noting existing    information on          process and criteria              criteria used by
                                          regulator approval          capital reduction processes   repayment criteria      their agencies will use           regulators




                                       FEB 2009                                                                            MARCH 2009                       MAY 2009                     JUNE 2009
  PROCESS FOR SCAP INSTITUTIONS ONLY




                                        Feb 10, 2009                                                                                                  May 7, 2009             June 1, 2009
                                        Treasury announces that                                                                                 Regulators release             FRB publicly
                                        regulators will conduct a                                                                                the results of the     announces guidance
                                        “stress test” of 19 of the                                                                              SCAP stress tests            outlining SCAP
                                        largest bank holding                                                                                                              repayment criteria
                                        companies under the
                                        Supervisory Capital
                                        Assessment Program
                                        (“SCAP”)




Sources: Treasury, Public Law 111-5, FRB, and OCC.




                                                                     Treasury and Regulators Developed Repayment Guidance
                                                                     As the primary Federal regulator for all bank holding companies, FRB is
                                                                     responsible for supervising approximately 82% of all the institutions that
                                                                     participated in CPP,28 including each of the 17 SCAP institutions that
                                                                     participated. In this role, after coordinating with other regulators to evaluate
                                                                     repayment applications, FRB issues a recommendation to Treasury on whether or
                                                                     not each bank holding company should be allowed to repay. In doing so, FRB
                                                                     seeks consensus with other Federal regulators – FDIC, OCC, or previously OTS –
                                                                     if one or more of the regulators has a significant connection to the holding
                                                                     company’s largest subsidiary banks or thrifts, either through regulating a
                                                                     subsidiary or by insuring deposits.



28
                     FRB supervises all bank and financial holding companies and state member banks, which collectively comprise 82%
                     of the 707 institutions that participated in CPP. The remaining institutions are not subsidiaries of a bank or financial
                     holding company and are not state member banks. Among those, responsibility for supervising and issuing a
                     recommendation on CPP repayment to Treasury lies with FDIC for all non-member banks (9% of CPP participants);
                     OTS for all thrifts and savings and loan institutions (8% of CPP participants); and OCC for all national banks (1% of
                     CPP participants).


SIGTARP 11-005                                                                                                                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                           12




                      On March 17, 2009, FRB disseminated a template of a decision memorandum
                      developed to summarize evaluations of CPP repayment requests. The template
                      specifically instructs Federal Reserve Banks to consult with the regulators of the
                      institution’s subsidiary banks. Other criteria listed in FRB’s decision memo
                      template include the institution’s current capital ratios and summary financial
                      ratings; its forecasted condition once funds are repaid; and the appropriateness of
                      the institution’s capital planning processes.29

                      In May 2009, as FRB announced the results of the SCAP stress tests, some SCAP
                      institutions requested to repay Treasury’s CPP investment. Treasury’s repayment
                      guidance published that month stated that all SCAP institutions “must have a
                      post-repayment capital base at least consistent with the SCAP buffer,30 and must
                      be able to demonstrate its financial strength by issuing senior unsecured debt for a
                      term greater than five years not backed by FDIC guarantees, in amounts sufficient
                      to demonstrate a capacity to meet funding needs independent of government
                      guarantees.” These requirements prohibited institutions from using FDIC’s
                      Temporary Liquidity Guarantee Program (“TLGP”)31 to demonstrate their ability
                      to issue long-term debt.

                      On March 4, 2010, Treasury told the Congressional Oversight Panel (“COP”),
                      “After the stress test results were announced on May 7, 2009, Treasury officials
                      encouraged [FRB, FDIC, and OCC] to develop and articulate the conditions that a
                      bank would have to satisfy in order to be permitted to repay TARP assistance.
                      Treasury urged the regulators to develop and communicate any such conditions or
                      standards, so that banks wishing to repay could decide whether, how and when
                      they could meet the standards.” According to Treasury Secretary Timothy F.
                      Geithner, he told colleagues at Treasury and FRB “that it was important that they
                      lay out a clear set of criteria for repayment as soon as possible and that we
                      maximize incentives for the firms to go out and raise private capital on as large a
                      scale as possible.” Treasury, however, also told COP that while it “was asked for
                      and offered its opinions on proposed standards, the standards were determined by
                      the regulators and Treasury deferred to their judgment as to what should be


29
   See Appendix E for a template of the FRB Redemption Request Decision Memo for CPP repayment evaluations.
30
   The term “SCAP buffer” is shorthand for the requirement that SCAP institutions be able to maintain capital ratios of at
   least 6% of risk-weighted assets in Tier 1 Capital and at least 4% in Tier 1 Common Capital under the more adverse
   scenario projected through December 31, 2010.
31
   The Temporary Liquidity Guarantee Program (“TLGP”) was established in October 2008 to address “disruptions in
   the credit market, particularly the interbank lending market, which reduced banks’ liquidity and impaired their ability
   to lend. The goal of TLGP is to decrease the cost of bank funding so that bank lending to consumers and businesses
   will normalize.” The program does not rely on the taxpayer or the deposit insurance fund, but is entirely funded by
   industry fees. Participating institutions may issue debt under TLGP’s Debt Guarantee Program, which provided an
   FDIC guarantee of newly issued senior unsecured debt of participating insured depository institutions and other
   eligible entities. New guarantees were issued until October 31, 2009, with the debt being guaranteed until “the earliest
   of the opt-out date, the maturity of the debt, the mandatory conversion date for mandatory convertible debt, or
   December 31, 2012.”


SIGTARP 11-005                                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                    13




                  required.” Secretary Geithner similarly told SIGTARP that Treasury “left the
                  principal verdict with [FRB].”

                  FRB Issued Guidance to SCAP Institutions in June 2009
                  On June 1, 2009, FRB issued a press release outlining the criteria for SCAP
                  institutions to redeem Treasury’s TARP investment. FRB’s release stated that
                  any SCAP institution “seeking to redeem U.S. Treasury capital must demonstrate
                  an ability to access the long-term debt markets without reliance on [TLGP] and
                  must successfully demonstrate access to public equity markets.” The release set
                  forth other factors that would be considered by FRB, including whether the SCAP
                  institutions would be able to maintain capital levels consistent with supervisory
                  expectations. Finally, the release provided that SCAP institutions must have a
                  robust longer-term capital assessment and management process geared toward
                  achieving and maintaining a prudent level and composition of capital
                  commensurate with the company’s business activities and firm-wide risk profile.

                  A senior FRB official told SIGTARP that the requirement to demonstrate access
                  to equity markets meant that the institution had to issue additional common stock
                  prior to repaying and exiting TARP. According to the official, this requirement
                  was an essential condition of CPP repayment and a market test of each firm’s
                  viability. In determining the appropriate size of the common stock issuance
                  required for each institution, FRB considered whether the issuance would
                  generate enough capital for the institution to remain above SCAP target capital
                  ratios after removing TARP capital.

                  FDIC and OCC played a minor role in reviewing the June 2009 repayments, in
                  part because regulators viewed these repayments as less controversial and less
                  complicated than later repayments. Senior-level OCC officials said that they were
                  given a chance to object to repayment proposals, but had no conversations
                  concerning the size of the common stock issuances required by FRB and voiced
                  no objections to them. A senior-level FDIC official said that his agency provided
                  input to FRB on the repayments, but that the input was informal. Additionally,
                  FRB did not consult with OTS at all on the repayment application submitted by
                  American Express, though OTS regulated the company’s largest subsidiary.
                  According to an OTS official, this was an oversight on the part of FRB, and
                  representatives from the two agencies later met to ensure it did not happen with
                  future repayment applications. American Express is the only SCAP institution
                  with a large subsidiary that was regulated by OTS.

                  Repayments by SCAP Institutions in June 2009
                  The eight CPP institutions found to have met the SCAP stress test requirements
                  became eligible to repay TARP immediately after the June 2009 guidance was
                  issued. Each institution applied to do so in the month leading up to the issuance
                  of the guidance. These eight institutions – American Express, BB&T, BNY
                  Mellon, Capital One, Goldman Sachs, JPMorgan, State Street, and U.S. Bancorp


SIGTARP 11-005                                                                        September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                       14




                      – were soon joined by a ninth – Morgan Stanley – which raised enough capital to
                      become eligible shortly after the SCAP results were announced and also applied
                      to repay.

                      All nine of these institutions were approved for TARP repayment and exited
                      TARP on June 17, 2009, repaying a combined total of $66.7 billion to Treasury.32
                      The remaining eight institutions were required to wait, at a minimum, until they
                      raised enough capital to meet SCAP requirements and met the other criteria set
                      forth in the June 2009 guidance before they could apply to repay and exit
                      TARP.33 Then-FDIC Chairman Sheila Bair told SIGTARP that the stronger
                      institutions, in terms of capital adequacy, exited in the first round of SCAP
                      repayments.

                      Prior to exiting TARP, each institution that repaid in June 2009 issued new
                      common equity in response to the requirement that they demonstrate access to
                      equity markets. Table 2 below shows the amount of common stock issued in
                      connection with TARP repayment by each institution that repaid on
                      June 17, 2009.
                      TABLE 2
                      COMMON STOCK ISSUED IN CONNECTION WITH TARP
                      EXIT IN JUNE 2009
                                                               Common                    TARP
                                                                  Stock              Repayment
                      Institution                           Issued ($bn)                  ($bn)
                      Morgan Stanley                                   7.0                  10.0
                      JPMorgan                                         5.8                  25.0
                      Goldman Sachs                                    5.8                  10.0
                      U.S. Bancorp                                     2.8                   6.6
                      State Street                                     2.3                   2.0
                      BB&T                                             1.7                   3.1
                      Capital One                                      1.5                   3.6
                      BNY Mellon                                       1.4                   3.0
                      American Express                                 0.5                   3.4

                      Sources: Treasury, FRB, and the Securities and Exchange Commission.




                      Treasury, as well as FRB, emphasized the importance of replacing TARP capital
                      with some amount of private capital. Secretary Geithner told SIGTARP that
                      putting pressure on firms to raise private capital was part of “a forceful strategy of
                      raising capital early.” According to the Secretary, “You can’t force private capital
                      to come in, but you can go to firms and ask them to raise it… We thought the

32
   Northern Trust Corporation, a large financial institution that did not participate in SCAP, also exited TARP on
   June 17, 2009.
33
   These eight were Bank of America, Citigroup, Fifth Third Bancorp, KeyCorp, PNC Financial Services, Regions
   Financial, SunTrust, and Wells Fargo.


SIGTARP 11-005                                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                         15




                      American economy would be in a better position if [the firms] went out and raised
                      capital… It doesn’t matter whether [the firms] thought it was in their interest. We
                      thought it was in our interest.” FRB Governor Daniel Tarullo34 told SIGTARP
                      that FRB would not have allowed the institutions to “repay TARP without them
                      having enough capital to absorb losses.” He added that the common stock the
                      institutions were required to issue resulted in “a big upgrade in their capital
                      position.”

                      According to FRB analysis of the June 2009 repayments, the projected capital
                      ratios of each institution remained above SCAP targets after CPP funds were
                      removed from their capital structure. FRB officials explained to SIGTARP that,
                      using data collected through the recently completed stress tests, they would “back
                      up” each institution’s projected capital ratios by subtracting TARP capital to aid
                      in estimating the amount each would have to raise through common equity
                      issuance. An FRB official also noted that some institutions may have elected to
                      issue additional common stock to take advantage of more receptive equity
                      markets.

                      TARP funds added to the preferred capital base of each recipient, and therefore,
                      TARP repayment altered the recipient’s capital structure. Generally, the
                      repayments replaced TARP preferred capital with a smaller amount of higher
                      quality common capital. For most institutions, the repayments resulted in a
                      reduction in Tier 1 Capital – which includes both preferred and common equity
                      elements – because when an institution exits TARP, it redeems the TARP
                      preferred stock from Treasury and removes it from its capital structure. However,
                      because regulators required banks to raise some amount of new common stock to
                      exit TARP, the repayments generally increased the amount of Tier 1 Common –
                      which includes only common equity elements – held by the institutions.

                      For SCAP institutions repaying in June 2009, TARP repayment lowered an
                      institution’s Tier 1 Capital ratio by an average of 114 basis points35 (from 11.06%
                      to 9.91%) as projected by FRB through 2010. However, FRB also projected that
                      Tier 1 Common ratios increased by an average of 133 basis points (from 6.57% to
                      7.90%) due to the new common stock each repaying institution was required to
                      issue.36 According to FRB’s projections, two institutions – State Street and
                      BB&T – would see an increase of 300 basis points in their Tier 1 Common ratios
                      from issuing common stock and exiting TARP. Figure 2 shows the net change in
                      projected Tier 1 Capital and Tier 1 Common ratios for the nine SCAP institutions
                      that repaid in June 2009.

34
   Upon taking office on January 28, 2009, Governor Tarullo became Chairman of FRB’s Committee on Bank
   Supervision.
35
   A basis point represents 1/100 of a percent. For example, an increase from 5.25% to 5.50% would be an increase of
   25 basis points.
36
   The average change in FRB’s projected Tier 1 Capital and Tier 1 Common ratios for institutions that repaid in
   June 2009 was determined by calculating a simple average of the institutions’ projected ratios.


SIGTARP 11-005                                                                                        September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                    16



FIGURE 2
NET CHANGE IN PROJECTED CAPITAL RATIOS FROM TARP REPAYMENT BY SCAP INSTITUTIONS
REPAYING IN JUNE 2009




Source: SIGTARP analysis of FRB data.
Note: American Express’ projected Tier 1 Common ratio under SCAP conditions remained unchanged after TARP repayment.




SIGTARP 11-005                                                                                                         September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                                                             17




                                                           November 2009 Clarifying Guidance
                                                           This section details the events leading to the revision of the TARP repayment
                                                           guidance for remaining SCAP institutions by FRB on November 3, 2009.
                                                           Figure 3 shows the timeline of key events related to the development of revised
                                                           TARP repayment guidance for SCAP institutions.

                                                           In the months following the SCAP stress tests and the June 2009 repayments,
                                                           each of the eight SCAP institutions that remained in CPP brought their capital
                                                           ratios into compliance with the SCAP capital requirements through common stock
                                                           issuance and conversion, asset sales, and other capital actions. Bank of America
                                                           and Wells Fargo began talking to the press in early September 2009 about their
                                                           plans to repay TARP. Over the following weeks, Federal banking regulators and
                                                           Treasury began to discuss revising the criteria for remaining SCAP institutions to
                                                           repay and exit TARP, culminating in FRB’s issuance of revised guidance on
                                                           November 3, 2009.


FIGURE 3
DEVELOPMENT OF REVISED TARP REPAYMENT GUIDANCE FOR SCAP INSTITUTIONS
(SEPTEMBER 2009 – NOVEMBER 2009)

                                      SEPTEMBER 2009           OCTOBER 2009                                                    NOVEMBER 2009
 PROCESS FOR SCAP INSTITUTIONS ONLY




                                      Sept 1, 2009             Oct 2009             Oct 15, 2009         Oct 20 & 23, 2009      Nov 3, 2009                Nov 24, 2009
                                      Media reports that       FRB leads            Treasury sends FRB   Treasury hosts         FRB issues             TARP repayment
                                      BAC and WFC are          discussions with     its own repayment    meetings with heads    confidential revised   plans due to FRB
                                      seeking to repay         FDIC, OCC and        analysis for         of Federal banking     guidance with 1-for-         per revised
                                      TARP                     Treasury to revise   remaining SCAP       agencies to discuss    2 expedited                    guidance
                                                               repayment guidance   institutions         revised guidance       repayment option
                                                               for remaining SCAP
                                                               institutions




Sources: Treasury, FRB, FDIC, The Wall Street Journal, and Bloomberg.



                                                           Regulators Discussed Revising the Repayment Guidance; Treasury
                                                           Weighed in on the Criteria
                                                           In October 2009, FRB led discussions with FDIC, OCC, and Treasury to revise
                                                           the repayment guidance for the eight SCAP institutions that remained in TARP.
                                                           With the support of Secretary Geithner, who said that part of Treasury’s job “was
                                                           to make sure there was more consistency and consensus” regarding the repayment
                                                           guidance, regulators discussed specifying the minimum amount of common
                                                           equity that remaining institutions would have to raise before being allowed to
                                                           repay TARP immediately. In addition to seeking consistency, Treasury was also
                                                           concerned that to avoid diluting the holdings of common shareholders, some


SIGTARP 11-005                                                                                                                                              September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                         18




                      institutions might decide to hold on to TARP capital and repay slowly through
                      earnings, rather than issue new common equity.37 Secretary Geithner told
                      SIGTARP, “We did sometimes go to the firms themselves and told them they
                      needed to go raise as much as capital and as soon as possible, to prove to people
                      that they were able to repay the government and to put the institutions back in
                      private hands.”

                      Regulators sought to establish guidance that would help them to gain comfort
                      with expedited repayments. FRB Governor Tarullo told SIGTARP that since the
                      stress tests judged the remaining institutions to be unable to maintain sufficient
                      capital in adverse conditions, it was necessary to revise the June guidance to
                      provide additional assurance that they would be viable after TARP repayment.
                      By October 15, 2009, FRB arrived at such a framework, proposing to offer
                      remaining SCAP institutions two paths to full repayment: 1) repay upon
                      completion of supervisory review of the firm’s internal capital assessment and
                      planning process (or longer-term capital plans);38 or 2) expedite repayment by
                      raising at least 50% of outstanding TARP funds in common equity. The latter is
                      referred to as the 1-for-2 provision because the final version of the provision
                      required firms seeking immediate repayment to raise at least $1 in common stock
                      for every $2 they repaid in TARP funds.39 Former FRB Vice Chairman Donald
                      Kohn told SIGTARP that there were sound public policy reasons for including the
                      1-for-2 provision, noting that “the sooner the banks demonstrated they could go
                      out to the market and get out from under TARP, the sooner confidence could be
                      restored.”

                      Regulators developed the 1-for-2 provision based on their estimate that it would
                      align the Tier 1 Capital and Tier 1 Common ratios of the remaining institutions
                      with those of the institutions that exited TARP in June 2009. FRB Governor
                      Tarullo told SIGTARP that during the financial crisis, it became clear that the
                      markets cared about common equity, not Tier 1, and that the 1-for-2 provision
                      provided the “right order of magnitude” to position the remaining banks to absorb
                      potential future losses. An FRB official noted the similarity between the
                      proposed guidelines and the requirements of earlier SCAP repayments, writing
                      that it was “consistent with what we did for the first nine.” FRB officials
                      discussed how to measure common equity raised toward meeting the 1-for-2
                      provision. They considered crediting common equity raised in response to the
                      SCAP stress tests that exceeded minimum capital targets, crediting earnings to



37
   Issuing new common equity dilutes the holdings of existing common shareholders by increasing the number of shares
   outstanding and reducing the ownership stake of each share of common stock.
38
   While firms that exited in June were also required to submit their longer-term capital plans to FRB, supervisory review
   and acceptance of the plans was not a prerequisite for repayment approval for those firms.
39
   Regulators sometimes also referred to the 1-for-2 provision as a “safe harbor” for exiting TARP. However, it was not
   a safe harbor in that it did not guarantee that an institution would be allowed to repay TARP.


SIGTARP 11-005                                                                                           September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                             19




                         absorb losses in excess of expectations,40 or crediting the sale of assets. Treasury
                         developed its own repayment analysis for the remaining SCAP institutions around
                         that time. Treasury’s analysis also envisioned a common equity raise of
                         approximately 50%, or 1-for-2, of the amount the institution would repay, with
                         certain institutions required to raise additional capital above that minimum.
                         Despite the similarities between the proposals developed by FRB and Treasury,
                         regulators had yet to agree on revised repayment guidance for the remaining
                         SCAP institutions. At issue was whether to count capital that was not raised
                         through equity issuances, as well as the amount of capital above the 1-for-2
                         minimum that certain institutions would have to raise.

                         Treasury Facilitated Meetings with Regulators to Finalize the
                         Revised Guidance
                         A senior Treasury official told SIGTARP that during this time, some remaining
                         SCAP institutions were receiving conflicting messages from regulators about the
                         new repayment requirements, and the conflicting messages were beginning to sow
                         uncertainty in the markets. According to Secretary Geithner, “there had to be
                         clarity on the guidance that could be applied evenly to firms and that was quickly
                         understandable.” To that end, Secretary Geithner hosted at least two meetings
                         with the heads of Federal banking agencies in late October 2009 to discuss the
                         repayment guidance. Secretary Geithner told SIGTARP that the meetings were
                         part of a “constant conversation” about the repayment guidance.

                         During the meetings, FDIC pushed for strict wording that would require
                         institutions seeking expedited repayment to meet the 1-for-2 ratio entirely by
                         issuing new common stock. FDIC and other regulators also acknowledged early
                         on that certain institutions would be required to raise additional capital beyond
                         that minimum. Citigroup, for example, might need to raise 100% of Treasury’s
                         preferred stock investment, or 1-for-1, to justify an expedited repayment of TIP
                         funds. Then-Chairman Bair told SIGTARP that FDIC reluctantly agreed to the
                         1-for-2 ratio as a minimum requirement for most remaining institutions, but
                         would have preferred the more stringent 1-for-1 ratio to apply to all remaining
                         institutions. She added that FDIC ultimately found the 1-for-2 provision
                         reasonable because institutions that met it would increase the quality of their
                         capital, and in the process, receive market validation of their common stock.
                         According to then-Chairman Bair and a senior FDIC official, there was specific
                         agreement among regulators that all capital raised toward the 1-for-2 provision
                         would consist entirely of newly issued common stock, and not asset sales or
                         employee stock issuances.



40
     Specifically, excess pre-provision net revenue (“PPNR”). PPNR is net interest income, fees and other non-interest
     income, net of non-credit-related expenses. It represents the earnings capacity that can be applied to capital or loan
     losses and therefore, is a resource available to a firm to absorb some of its estimated losses under the SCAP scenarios.


SIGTARP 11-005                                                                                              September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                         20




                  However, according to then-Comptroller of the Currency John Dugan, there was
                  no formal agreement to a firm 1-for-2 requirement or that it be composed entirely
                  of newly issued common stock, and that OCC expressed concerns about such a
                  rigid requirement. A senior OCC official told SIGTARP that applying such a
                  requirement to all remaining institutions ignored other considerations, such as
                  earnings accrued in the interim, equity already raised in excess of SCAP
                  requirements, and “the reality of the bank’s balance sheet.” Further, according to
                  then-Comptroller Dugan, he “was very worried about the prospect of a capital
                  raise that failed to achieve an unduly high number and what that would do to
                  confidence in particular banks and the banking system.” He explained to
                  SIGTARP that given the fragile state of the markets at the time, he was concerned
                  that the 1-for-2 provision in particular was too high a bar for institutions to meet if
                  it consisted only of new equity issuance and did not credit other forms of equity
                  raising, including asset sales. He thought the goal should be to maximize the
                  amount of equity that could be raised, while not setting the bar so high that it
                  could not be achieved successfully. The difficulty in a 1-for-2 issuance would
                  become an important concern as regulators deliberated over Bank of America’s
                  repayment proposals the following month. Former FRB Vice Chairman Kohn
                  summed up each regulator’s perspective, telling SIGTARP that while FDIC
                  wanted the 1-for-2 to be met entirely with new common stock, “the OCC was
                  much more relaxed than that, and [FRB] was a little more relaxed than the FDIC.”

                  While OCC, FDIC, and Treasury were all given an opportunity to weigh in on the
                  revisions, FRB, as the primary Federal regulator of each SCAP institution, was
                  ultimately responsible for issuing the guidance. According to FRB Governor
                  Tarullo, this arrangement was beneficial from a public administration perspective
                  because there were multiple, sometimes conflicting, policy goals associated with
                  the repayment of TARP funds, and FRB was best suited to account for all policy
                  considerations. He told SIGTARP that FDIC was understandably concerned
                  about its exposure to institutions through TLGP and the deposit insurance fund,
                  and that OCC tends to look more narrowly at specific national banks with less of
                  a macro perspective. Treasury’s policy goal, according to Governor Tarullo, was
                  to get Government ownership ramped back. Governor Tarullo added that “you
                  want the decision maker to be someone who has an interest in all of the
                  conflicting policy aims.” With respect to TARP repayment, that entity was FRB.
                  He explained that it was a two-key process. First, FRB had to agree to let the
                  bank repay, and second, Treasury had to agree to be repaid, but the second key
                  would turn automatically if FRB turned the first key. Former FRB Vice
                  Chairman Kohn, who acted as a liaison to Treasury on repayment discussions,
                  told SIGTARP that he kept Treasury apprised of repayment discussions because
                  as the supplier of TARP capital, Treasury wanted to know the terms under which
                  it would be repaid.




SIGTARP 11-005                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                           21




                     FRB Issued November 2009 Guidance with a “1-for-2” Repayment
                     Option
                     On November 3, 2009, FRB issued the guidance non-publicly to the eight SCAP
                     institutions that had yet to exit TARP. In doing so, FRB included the strict
                     1-for-2 provision for expedited repayment developed by FRB and advocated by
                     FDIC, and required each remaining institution to submit a detailed TARP exit
                     plan within 21 days. Specifically, the guidance allowed institutions to either
                     expedite repayment by issuing $1 of new common equity for every $2 of TARP
                     repaid41 or to wait until supervisors completed their review of the institution’s
                     longer-term capital plan. The expedited option allowed firms to apply the 1-for-2
                     provision toward a partial repayment, but did not address the use of asset sales or
                     other means of generating capital beyond issuing new common stock. According
                     to one FRB official, “We designed the [1-for-2] with an option for a partial
                     [repayment] specifically to allow a firm to begin getting out while we do the
                     capital assessment work that needs to be done.” The guidance also provided that
                     institutions may be allowed to repay subject to the 1-for-2 provision. According
                     to regulators, the caveat was included to suggest that some of the remaining
                     SCAP institutions would need to raise additional capital. Similar to the guidance
                     issued in June 2009, the November 2009 guidance also addressed the institutions’
                     ability to lend, their access to equity markets, their ability to issue debt, their
                     capital adequacy, and their ability to serve as a source of financial and managerial
                     strength to subsidiaries.

                     Figure 4 summarizes the SCAP-specific repayment guidance issued by Treasury
                     and FRB from May 2009 through November 2009, which are reproduced in full
                     in Appendix C and Appendix D, respectively.




41
 Issuing new common equity typically refers to offering new common stock in equity markets.


SIGTARP 11-005                                                                                September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                   22



                  FIGURE 4
                  SUMMARY OF TARP REPAYMENT GUIDANCE TO SCAP INSTITUTIONS

                    May 2009 – Treasury FAQs on CPP Repayment 
                           In addition to demonstrating to regulators their overall soundness, capital adequacy, and 
                          ability to lend, the 19 institutions that were subject to the SCAP stress tests must meet the 
                          following criteria in order to repay CPP: 
                          1.    Maintain a post‐repayment capital base at least consistent with the SCAP buffer; and 
                          2.    Demonstrate their financial strength by issuing senior unsecured debt for a term greater than 
                                five years not backed by FDIC guarantees. 

                    June 1, 2009 – FRB Guidance for Repayment by SCAP Institutions 
                          A SCAP institution will become eligible to repay TARP only once it has met the SCAP capital 
                          requirements and submitted a description of its internal capital assessment, planning, and 
                          management processes. The following will inform the decision‐making process for the 19 
                          institutions that participated in SCAP: 
                          1.    Whether the institution can repay and remain in a position to fulfill its role as an intermediary 
                                that facilitates lending to creditworthy households and businesses; 
                          2.    Whether, after repayment, the institution will be able to maintain capital levels consistent with 
                                the SCAP buffer, supervisory expectations, industry norms and historical levels for the firm, 
                                including its own internal capital targets; 
                          3.    Whether the institution has demonstrated access to common equity through public issuance in 
                                equity capital markets and demonstrated the ability to raise a significant amount of unsecured 
                                senior debt without reliance on Government guarantees; 
                          4.    Whether the institution and its bank subsidiaries will be able to meet obligations to 
                                counterparties, as well as ongoing funding requirements; and 
                          5.    Whether the institution will be able to continue to serve as a source of financial and managerial 
                                strength and support to its subsidiary bank(s) after repayment. 

                    November 3, 2009 – FRB Clarifying Guidance for Repayment by SCAP Institutions 
                          In addition to the requirements outlined in the June guidance, remaining SCAP institutions 
                          may be permitted to redeem TARP capital subject to: 
                          1.    Submitting a plan detailing how the institution plans to repay TARP capital; and 
                          2.    Satisfying one of the following conditions. Either: 
                                      a.   Issue new common equity worth 50% of the amount of TARP capital the institution is 
                                           seeking to repay; or 
                                      b.   Wait until supervisors have completed a review of the institution’s longer‐term capital 
                                           planning processes. 


                  Sources: Office of Financial Stability (“OFS”) and FRB.


                  The 1-for-2 provision placed stricter repayment standards on the remaining SCAP
                  institutions compared to those that exited in June 2009. Former FRB Vice
                  Chairman Kohn told SIGTARP that regulators “wanted to toughen it up a little
                  because the next set of banks were almost by definition less strong than the first
                  set. Otherwise, they would’ve repaid right away,” noting that the remaining


SIGTARP 11-005                                                                                                  September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                       23




                  banks “demonstrated that they needed more oversight.” An FRB official also
                  noted that 1-for-2 was not an arbitrarily selected ratio, and that the stress tests
                  conducted earlier in the year provided FRB with insight on the amount of capital
                  required to secure the remaining SCAP institutions in worse-than-expected
                  market conditions. These assertions are supported by FRB analysis conducted as
                  the guidance was being developed. The analysis showed that the remaining
                  SCAP institutions’ Tier 1 Common ratios – the indicator markets and regulators
                  were primarily concerned with – were significantly lower than those of the
                  institutions that exited in June 2009.

                  Although the November 2009 guidance specified that the remaining SCAP
                  institutions were required to issue at least half (1-for-2) of the amount they sought
                  to repay in common stock, regulators later approved repayments under terms that
                  included somewhat smaller offerings, supplemented with capital raised through a
                  combination of proceeds from other sources, such as asset sales. Senior FDIC
                  officials told SIGTARP that the terms of some repayments ran contrary to
                  language specifying that the required capital raise would consist only of new
                  common stock. Then-Chairman Bair expressed frustration over the reliance on
                  asset sales and employee stock issuances to meet the 1-for-2, referring to those
                  sources of capital as “gimmicks,” in part because unlike new common stock they
                  did not provide market validation of the firm’s strength. Regulators ultimately
                  decided to relax the terms of the existing guidance to allow asset sales and other
                  forms of capital count toward the 1-for-2, but to count those types of capital less
                  than new common stock.

                  As of June 30, 2011, seven institutions had repaid TARP funds pursuant to the
                  November 2009 guidance: Bank of America repaid CPP and TIP in
                  December 2009; Citigroup repaid TIP in December 2009; Wells Fargo repaid
                  CPP in December 2009; PNC repaid CPP in February 2010; Fifth Third repaid
                  CPP in February 2011; and both KeyCorp and SunTrust repaid CPP in
                  March 2011.




SIGTARP 11-005                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                      24




                  Bank of America’s TARP Exit
                  To exit TARP immediately in compliance with the 1-for-2 provision outlined in the
                  November 2009 guidance, Bank of America was required to issue $22.5 billion in
                  new common equity before being allowed to repay its $45 billion TARP preferred
                  stock.

                  Despite the plain terms of the repayment guidance, from November 4, 2009,
                  through December 1, 2009, Bank of America submitted 11 repayment proposals
                  (10 for full repayment and one for partial repayment), with each falling short of
                  the 1-for-2 provision and including other sources of capital in place of newly
                  issued common stock. There was considerable discussion among the regulators
                  and Treasury regarding how much common stock Bank of America could
                  successfully issue and whether partial repayments and an exit from TARP in
                  multiple stages could be a viable alternative to a full repayment and an immediate
                  exit. Bank of America was adamant that it needed to repay in full and
                  immediately exit TARP, citing concerns including market perception and
                  restrictions established by the Special Master for TARP Executive Compensation.
                  As the negotiations progressed, FRB, OCC, and Treasury became increasingly
                  more comfortable with permitting other sources of capital as a substitute for
                  meeting the 1-for-2 provision in the repayment guidance, while FDIC pushed
                  hard to maintain the strict requirement, as originally established, that the 1-for-2
                  provision apply only to new common stock. Figure 5 shows the timeline of key
                  events related to Bank of America’s repayment and exit from TARP.




SIGTARP 11-005                                                                         September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                                                    25



FIGURE 5
KEY TARP REPAYMENT EVENTS FOR BANK OF AMERICA (BAC)

                          Oct 28, 2009
                          BAC’s Board
                      considers TARP
                 repayment scenarios,                                                      Dec 9, 2009
                    including full $45B                                                    BAC repays $45B
                  and a partial $32.5B;                                                    and exits TARP
                         Proposes $8B
                              issuance                             Dec 1-2, 2009
                                                 Nov 20, 2009      BAC submits 11th and
                                              FRB prepares to      final proposal; FRB
    Sep 2009                                   approve BAC’s       approves on 12/2; BAC                        Note: Issuance occurred after announcement and
    BAC notifies FRB of                      proposal for $14B     announces equity                             was completed at a later date
    its desire to repay                             issuance;      offering                                     *BAC issued common equivalent securities,
    TARP in Oct 2009                            FDIC opposes       > $19.3B ISSUANCE*                           which converted to common stock on Feb 24, 2010


  Bank of America Corp. (BAC)

   SEP 2009           OCT 2009            NOV 2009                DEC 2009                                                        JAN 2010 FEB 2010
  Nov 2009 Guidance


                            Nov 3, 2009           Nov 24, 2009
                         FRB issues non-           Deadline for
                           public revised      repayment plans
                      guidance with 1-for-     required by FRB
                             2 expedited              guidance
                        repayment option

 Sources: SIGTARP, OFS, FRB, OCC, and Bank of America.




                                Bank of America approached FRB and Treasury early in fall 2009, before the
                                November 2009 guidance was issued, to inquire about repaying Treasury’s
                                investment and exiting TARP. On September 11, 2009, then-CEO Kenneth
                                Lewis met with Secretary Geithner in Washington at the CEO’s request.
                                According to Mr. Lewis, he told Secretary Geithner that Bank of America wanted
                                to begin repayment discussions, and the Secretary replied that Bank of America
                                would need to “raise a lot of equity” to exit TARP.
                                                                                                             Trust Preferred Securities
                                On October 28, 2009, senior executives at
                                Bank of America presented three potential       Securities with both equity and debt
                                TARP repayment scenarios to its board of        characteristics, created by establishing a
                                directors. Two of the three scenarios           trust and issuing debt to it.
                                envisioned a partial TARP repayment             Pursuant to the Dodd-Frank Wall Street
                                during the fourth quarter of 2009 and a         Reform and Consumer Protection Act, trust
                                phased exit from TARP. The third                preferred securities issued after
                                                                                May 19, 2010, by a bank or thrift holding
                                scenario envisioned repaying the full           company with more than $500 million in
                                $45 billion in preferred stock and              assets will no longer count as Tier 1
                                immediately exiting TARP during the             Capital.
                                fourth quarter of 2009. To provide some
                                of the capital for the full repayment, Bank of America proposed to issue $8 billion
                                in new common stock and $4 billion in trust preferred securities. During this



SIGTARP 11-005                                                                                                                                  September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                     26




                        meeting, Bank of America’s board formally authorized senior executives to hold
                        discussions with the Government about repaying Treasury and exiting TARP.

                        Bank of America Submitted Proposals to Exit TARP Immediately
                        After FRB Issued Revised Guidance in November 2009
                        The guidance FRB issued on November 3, 2009, required Bank of America to
                        issue $22.5 billion in new common stock to be eligible for full and immediate
                        TARP repayment under the 1-for-2 provision.42 Through this provision, Bank of
                        America could also repay in part and exit TARP in multiple stages. Alternatively,
                        the institution could wait and repay TARP once supervisors completed a
                        satisfactory review of the bank’s longer-term capital plans.

                        On November 4, 2009, the day after
                                                                Bank of America Proposal 1
                        FRB issued the revised guidance,           (Nov. 4, 2009)
                        Bank of America indicated its
                        preference to repay TARP in full and    • $9.25 billion common issuance
                                                                • $4.0 billion trust preferred securities
                        immediately exit. A former Bank of
                        America executive told SIGTARP that
                        repaying in full and exiting TARP immediately was preferable because a partial
                        repayment would not address the uncertainty in the market associated with the
                        bank’s continued participation in TARP.

                        Rather than seek approval through the 1-for-2 provision, however, Bank of
                        America asked FRB to expedite its review of Bank of America’s longer-term
                        capital plan and, subject to satisfactory completion of that review, allow the bank
                        to repay its full TARP investment (including warrants) and exit TARP
                        immediately. To fund the repayment, Bank of America proposed to issue
                        $9.25 billion in new common stock, $4 billion in trust preferred securities, and
                        use $33.75 billion in existing liquidity. However, because Bank of America’s
                        initial repayment proposal failed to improve the bank’s capital position, FRB
                        rejected it.

                        During the week of
                        November 9, 2009, FRB and OCC            Bank of America Proposal 2
                                                                    (Nov. 12, 2009)
                        examiners conducted an abridged
                        review to gauge Bank of America’s        • $12.7 billion common issuance
                        internal capital assessment and          • $5.0 billion trust preferred securities
                        planning processes. Examiners
                        concluded that while the bank had improved these processes, any TARP
                        repayment proposal outside of the 1-for-2 provision would need to be

42
     A $22.5 billion public issuance and repayment of $45 billion in TARP funds represents $1 of new common stock for
     every $2 repaid, the minimum ratio required by the guidance. Then-Chairman Bair told SIGTARP that although it was
     not discussed during meetings about the guidance, FDIC’s view was that Bank of America would be required to raise
     somewhere between 1-for-2 and 1-for-1.


SIGTARP 11-005                                                                                       September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                27




                          accompanied by a more complete review by FRB. According to Bank of
                          America, regulators indicated that a complete review of the bank’s longer-term
                          capital plans could take up to four months. Instead, Bank of America prepared a
                          second repayment proposal, which sought expedited repayment through the 1-for-
                          2 provision. On November 12, 2009, Bank of America submitted the proposal to
                          FRB, requesting to fully repay the $45 billion in TARP funds and immediately
                          exit by issuing $12.7 billion in common stock, $5 billion in trust preferred
                          securities, and using existing liquidity. The terms proposed still fell short of the
                          requirements established under the 1-for-2 provision.

                          On November 13, 2009, FRB received two new repayment proposals from Bank
                          of America – one requesting a full $45 billion repayment and immediate TARP
                          exit, and the other proposing a partial repayment of $35 billion followed by an
                          exit from TARP in stages. The latter proposal hinged on Treasury committing to
                          remove Bank of America’s exceptional assistance designation43 after the partial
                          repayment. The exceptional assistance designation imposed additional


                                                    Bank of America Proposals (Nov. 13, 2009)

                             Proposal 3 ($45B repayment)                 Proposal 4 ($35B repayment)
                           • $12.7 billion common issuance             • $7.7 billion common issuance
                           • $5.0 billion trust preferred securities   • $5.0 billion trust preferred securities
                           • $1.5 billion asset sales                  • $1.5 billion asset sales


                          restrictions on the bank, including subjecting it to heightened executive
                          compensation restrictions under the purview of the Special Master for TARP
                          Executive Compensation. Bank of America executives told SIGTARP that
                          removal of this designation, and the accompanying executive compensation
                          restrictions, was just one of many factors influencing their decision to seek
                          repayment. FRB viewed both proposals as insufficient because they failed to
                          meet the 1-for-2 provision.




43
     Institutions deemed by Treasury to have received exceptional financial assistance are those that participated in the
     Systemically Significant Failing Institutions Program, Targeted Investment Program, Automotive Industry Financing
     Program, or any future Treasury program designated by the Secretary as providing exceptional assistance. This
     designation subjects institutions to additional reporting requirements and certain restrictions, including restrictions on
     executive compensation. For more detail, see SIGTARP’s June 2010 audit report, “Treasury’s Monitoring of
     Compliance with TARP Requirements by Companies Receiving Exceptional Assistance.”




SIGTARP 11-005                                                                                                     September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                       28




                        As Bank of America Submitted Additional Proposals, OCC and
                        Treasury Indicated Support for Proposals that Fell Short of the
                        1-for-2 Provision
                        On November 16, 2009, Bank of
                                                                   Bank of America Proposal 5
                        America submitted a fifth repayment           (Nov. 16, 2009)
                        proposal, seeking to repay the full
                        $45 billion and immediately exit by        • $13.0 billion common issuance
                                                                   • $5.0 billion trust preferred securities
                        issuing $13 billion in new common          • $5.3 billion asset sales
                        stock equivalent,44 $5 billion in trust    • $1.7 billion employee stock compensation
                        preferred securities, $1.7 billion in
                        stock to employees in lieu of paying
                        cash bonuses, applying proceeds from $5.3 billion in asset sales, and using
                        existing liquidity. Because Bank of America shareholders would need to
                        authorize additional shares to permit the institution to issue the $13 billion in
                        common stock, the bank proposed issuing a common stock equivalent and
                        incentivizing shareholders to later vote for its conversion to common stock.
                        While the proposal would significantly increase Bank of America’s Tier 1
                        Common ratio, it was still inconsistent with the 1-for-2 provision, and regulators
                        considered whether its approval would set a precedent for the remaining SCAP
                        institutions.

                        Nevertheless, Bank of America submitted a sixth full repayment and immediate
                        exit proposal to FRB on November 17, 2009, increasing the common stock it
                        proposed to issue to $14 billion, the
                        proceeds from asset sales to             Bank of America Proposal 6
                                                                    (Nov. 17, 2009)
                        $6.8 billion, and removing the trust
                        preferred securities altogether.         • $14.0 billion common issuance
                        Although the 1-for-2 provision was       • $6.8 billion asset sales
                                                                 • $1.7 billion employee stock compensation
                        designed to apply only to new
                        common stock, after receiving this
                        proposal, FRB considered relaxing the guidance to allow for the inclusion of other
                        sources of capital. Regulators discussed how to count asset sales in the 1-for-2
                        guidance, but did not accept this proposal.




44
     Common stock equivalent is an interim security that converts to common stock upon shareholder approval. The terms
     of Bank of America’s common stock equivalent also provided that, if sufficient shares of common stock had not been
     authorized within 105 days of the issuance of the common stock equivalent, the dividend on the common stock
     equivalent would have increased from the rate on common stock to 10%, and continued to increase by 2% each quarter
     thereafter until the rate reached 16%.


SIGTARP 11-005                                                                                        September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                      29




                        Bank of America submitted another full repayment proposal the following day.
                        Without increasing the amount of
                        common stock the bank proposed           Bank of America Proposal 7
                        to issue, the proposal submitted on         (Nov. 18, 2009)
                        November 18, 2009, added back            • $14.0 billion common issuance
                        $2.5 billion of the trust preferred      • $2.5 billion trust preferred securities
                        securities and increased the             • $8.8 billion asset sales
                                                                 • $1.7 billion employee stock compensation
                        proposed proceeds from asset sales
                                        45
                        to $8.8 billion. Later that day,
                        OCC cited the proposed repayment’s positive impact on the institution’s capital
                        and liquidity, additional savings from no longer paying TARP dividends,
                        increased managerial flexibility, and client stabilization. OCC internally stated
                        that the proposal “meets all technical requirements” established by regulators.
                        Former Comptroller Dugan explained that OCC viewed the 1-for-2 provision as
                        “a fine benchmark, but not an ironclad requirement,” and was concerned that
                        institutions might miss a window of strong investor demand for financial stocks if
                        regulators held the line on repayment requirements that were, in his view, “too
                        rigid.” After reviewing the proposal, Treasury also advised FRB to move forward
                        on Bank of America’s TARP repayment. FRB and FDIC continued discussions
                        about whether to allow asset sales into the 1-for-2 provision. According to FRB,
                        Treasury provided input that asset sales should count at a 1-for-1 ratio, meaning
                        that a bank could redeem $1 of TARP for every $1 generated by an asset sale up
                        to a predetermined cap.

                        FDIC Maintained Its Opposition as Bank of America Submitted Its
                        Eighth and Ninth Proposals, While Regulators Debated the
                        Feasibility of a $22.5 Billion Common Stock Issuance
                        Bank of America submitted an eighth proposal to FRB on November 20, 2009,
                        that offered to issue an additional
                        $1 billion in trust preferred           Bank of America Proposal 8
                        securities beyond the terms                (Nov. 20, 2009)
                        previously proposed. FDIC learned       • $14.0 billion common issuance
                        that FRB was prepared to approve        • $3.5 billion trust preferred securities
                        this most recent TARP repayment         • $8.8 billion asset sales
                                                                • $1.7 billion employee stock compensation
                        request. Then-Chairman Bair wrote,
                        “Well, we will have to oppose this
                        and so notify the bank.” She told SIGTARP she was frustrated that the proposal
                        did not meet the expedited repayment terms that regulators had agreed to.

                        FRB and FDIC then engaged in conversations about how much capital the market
                        could absorb. Bank of America asserted that it would not be able to successfully
                        fill a $22.5 billion common stock offering, and that a partial repayment would

45
     Bank of America also proposed to reduce the amount of assets sold by twice the amount of any common stock issued
     in excess of $14 billion.


SIGTARP 11-005                                                                                        September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                    30




                       also not be feasible. According to the bank, it was concerned that a partial
                       repayment might lead investors to suspect that regulators had additional credit
                       concerns or that additional repayments would require another equity offering.
                       While some within FRB remained unconvinced, according to an FRB governor,
                       Treasury was also inclined to believe that issuing $22.5 billion was “out of reach
                       or that it risks a failed offering – a very bad outcome.” When asked about this
                       concern, a senior Treasury official told SIGTARP that a determination on what
                       the market could bear was “always a judgment call” because “there were lots of
                       moving parts, and it wasn’t black and white.”

                       On November 21, 2009, then-Chairman Bair acknowledged that Bank of America
                       might have to accept dilution and sell its stock at a discount to augment the size of
                       the proposed offering, but noted “that should not be our concern.” She further
                       stated, at that time, that if Bank of America could not meet the 1-for-2 minimum,
                       “then that reflects market weakness which just validates the view that they aren’t
                       yet strong enough to exit.” She later told SIGTARP that “the argument [FRB and
                       OCC] used against us – which frustrated me to no end – is that [Bank of America]
                       can’t use the 2-for-1 because they’re not strong enough to raise 2-for-1. That just
                       mystified me. The point was if they’re not strong enough, they shouldn’t have
                       been exiting TARP.” She added that “with TARP being over, Treasury couldn’t
                       come back in,” 46 and FDIC was concerned about its exposure to Bank of America
                       through its deposit insurance fund and the institution’s participation in TLGP.
                       Then-Chairman Bair was also concerned in late November 2009 that acceptance
                       of the proposal would have repercussions with other TARP banks seeing the
                       Government as loosening its repayment standards and expecting a similar deal.
                       She added, at the time, that “none of us liked the TARP program but let’s not
                       compound the error now by allowing a weak institution to prematurely exit.”

                       FRB Governor Tarullo told SIGTARP that the issue was not about the strength of
                       Bank of America, but was really about “how much could the market absorb.”
                       Regulators sought the input of Wall Street advisors. Governor Tarullo told
                       SIGTARP that despite bringing in these advisors, “nobody could be certain” how
                       much Bank of America could successfully issue and that FRB “had to make a
                       judgment as to some amount, which would be difficult to pull off.” FRB
                       Governor Kohn told SIGTARP that FRB wanted to push Bank of America to
                       issue as much new common stock as the market would allow, but there was a
                       feeling “that if they went out for something and didn’t get it, it would be a vote of
                       no confidence.” He added that “it was better to go out for a little less and top it
                       off” by exercising the overallotment option. Officials from OCC and Treasury
                       also told SIGTARP that requiring Bank of America to issue $22.5 billion in new
                       common stock – the largest ever common stock offering in the U.S. – would have
                       risked a failed equity offering, potentially destabilizing the firm and threatening
46
     On December 9, 2009, one week after FRB approved Bank of America’s final repayment proposal, Secretary Geithner
     extended Treasury’s authority to commit TARP funds until October 3, 2010, pursuant to section 120 of EESA.
     Without the extension, Treasury’s authority would have terminated on December 31, 2009.


SIGTARP 11-005                                                                                      September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                       31




                  confidence in the broader financial system. FRB Governor Tarullo added that “it
                  was not in anyone’s interest, not the firms, not Treasury, or the financial system to
                  have one firm go out and fail to get the amount in question.”

                  Meanwhile, on November 23, 2009, Bank of America submitted its ninth proposal
                  to FRB to repay TARP in full and immediately exit, increasing the size of the
                  proposed common stock offering to
                  $15 billion, and adjusting the amount    Bank of America Proposal 9
                                                              (Nov. 23, 2009)
                  of trust preferred securities and the
                  proceeds it proposed to generate         • $15.0 billion common issuance
                  through asset sales. On                  • $4.0 billion trust preferred securities
                  November 25, 2009, two Bank of           • $7.6 billion asset sales
                                                           • $1.7 billion employee stock
                  America directors met with then-         compensation
                  Chairman Bair to discuss exiting
                  TARP. Former Bank of America CEO Kenneth Lewis told SIGTARP that it was
                  important to receive FDIC’s approval to exit TARP. Mr. Lewis said that the
                  understanding within Bank of America was that “for all practical purposes” Bank
                  of America’s TARP exit “wouldn’t go forward without [FDIC’s] support.” Then-
                  Chairman Bair told SIGTARP that while FDIC “had no legal standing on this,”
                  the regulator had “implicit leverage…to weigh into the process” that is built into
                  agency relationships.

                  At the meeting, the two Bank of America directors briefed then-Chairman Bair on
                  the bank’s operating condition, including its need to repay TARP in order to
                  complete a successful CEO search. She reaffirmed FDIC’s position that 1-for-2
                  was the minimum requirement. According to Bank of America, she also offered
                  as an alternative to arrange an interagency agreement to allow for a partial TARP
                  repayment and the bank’s removal from the exceptional assistance designation.
                  FDIC told SIGTARP that partial repayment and limited relief from employment
                  restrictions for the purpose of recruiting a new CEO would have been preferable
                  to a TARP repayment that was inconsistent with the 1-for-2 provision.

                  Regulators Sought Advice and Consensus on the Amount of
                  Common Stock Bank of America Could Issue
                  On November 25, 2009, all three regulators held a conference call with the
                  outside advisors to Bank of America and FRB to discuss differing views of the
                  amount of common stock that Bank of America would be able to successfully
                  issue in the market. That same day, financial markets were rattled by an
                  announcement that the Government of Dubai’s flagship holding company would
                  seek to postpone debt payments. The resulting uncertainty further complicated
                  discussions about the timing and size of Bank of America’s proposed raise.

                  Because no one could predict how the market would react to various issuance
                  targets, on November 29, 2009, regulators began to discuss a “best efforts” plan in
                  which Bank of America would try to raise as much common stock as possible


SIGTARP 11-005                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                       32




                  such that any remaining TARP capital would be repaid through other means.
                  Regulators would push for as much issuance of common stock as the market
                  would bear, and any shortfall could be replaced with trust preferred securities and
                  asset sales through an agreed-upon path to exit over time.

                  On November 30, 2009, Bank of America reasserted that only a plan that would
                  get it out of TARP entirely through one lump sum repayment was feasible. An
                  FRB official noted to SIGTARP that the option built into the November 2009
                  guidance that allowed for a partial repayment and multi-staged exit from TARP
                  turned out to be impractical for some firms, in part because customers and
                  investors believed that TARP participation carried a stigma. FRB Governor
                  Tarullo reiterated this point, telling SIGTARP, “It was a binary situation where
                  markets were going to view firms as out of the Government embrace or not.”

                  FRB Approved Bank of America’s 11th and Final Proposal After
                  Reaching Agreement with FDIC on the Terms
                  On December 1, 2009, Bank of America submitted its 10th proposal to FRB, this
                  time to repay TARP in full and
                  immediately exit by issuing            Bank of America Proposal 10
                                                            (Dec. 1, 2009)
                  $18.8 billion in common stock,
                  $4 billion in trust preferred          • $18.8 billion common issuance
                  securities, and $1.7 billion in        • $4.0 billion trust preferred securities
                                                         • $1.7 billion employee stock compensation
                  common stock to employees. FDIC
                  did not believe that Bank of America Bank of America Proposal 11
                  should get any credit for trust           (Dec. 1, 2009)
                  preferred securities because, in its
                                                         • $18.8 billion common issuance
                  view, trust preferred securities had   • $4.0 billion asset sales
                  proven not to have the loss            • $1.7 billion employee stock compensation
                  absorbing capacity of common
                  equity, and the guidance clearly
                  called for new common equity. Regulators ultimately determined that it would be
                  preferable to count some amount of prospective asset sales, if backed by a
                  commitment to raise additional common stock to the extent that the asset sales
                  were not completed.

                  Later on December 1, 2009, Bank of America submitted an 11th and final
                  proposal, replacing the trust preferred securities with asset sales to be completed
                  by December 31, 2010. The institution now proposed to repay the full $45 billion
                  TARP commitment and immediately exit by issuing $18.8 billion in common
                  stock, $1.7 billion in common stock to employees, and committing to enter into
                  binding contracts to sell assets by June 30, 2010, that would generate an
                  additional $4 billion in common equity by December 31, 2010, backstopped by
                  common stock, and using existing liquidity.




SIGTARP 11-005                                                                         September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                        33




                  The amount of common stock Bank of America eventually agreed to issue was
                  more than twice the amount the institution initially proposed. Mr. Lewis told
                  SIGTARP that each proposal Bank of America submitted was a “reasonable
                  proposal” and that the institution was not “low-balling” as a tactic in negotiations.
                  FDIC officials, however, told SIGTARP that in their view Bank of America’s
                  outside advisor did low-ball its estimate of the amount the institution would be
                  able to raise through an equity offering. Then-Chairman Bair told SIGTARP that
                  FDIC eventually agreed to the 11th proposal after Bank of America officials made
                  a verbal commitment to her that the bank would raise equity through an
                  overallotment option in accordance with the 1-for-2 provision rather than rely on
                  earnings from the asset sales.

                  On December 2, 2009, FRB approved Bank of America’s repayment proposal and
                  Bank of America issued a press release detailing the terms of its exit from TARP.
                  Bank of America’s common stock offering on December 4, 2009, raised
                  $19.3 billion, though the overallotment option was never exercised, and Bank of
                  America repaid Treasury’s $45 billion TARP investment in full on
                  December 9, 2009. Then-Chairman Bair told SIGTARP that the offering was
                  “oversubscribed” and said that FDIC was “disappointed” that the will was not
                  there to issue additional common stock. She added, “They could’ve gotten the
                  whole thing” and met the requirement to raise $22.5 billion in new common stock
                  in accordance with the 1-for-2 provision as originally designed. Governor Tarullo
                  told SIGTARP that once Bank of America raised this “enormous amount of
                  capital,” other TARP recipients thought that maybe they too should “go down this
                  path” and raise equity in a sufficient amount to repay TARP in full and
                  immediately exit.

                  Bank of America increased its common stock issuance by $500 million from
                  $18.8 billion to $19.3 billion, still short of the $22.5 billion called for by the 1-
                  for-2 guidance. As a result, the amount of additional capital it was required to
                  raise in 2010 decreased from $4 billion to $3 billion. Realizing that it would not
                  meet a June 30, 2010, interim deadline to enter binding contracts, Bank of
                  America requested that FRB waive the interim deadline and use more favorable
                  accounting rules that were in place at the time the repayment agreement was
                  signed to credit the proceeds from asset sales. FRB agreed to waive the interim
                  deadline, but maintained the requirement that all asset sales be completed
                  according to current accounting rules by December 31, 2010. On
                  November 15, 2010, Bank of America reported to the Federal Reserve Bank of
                  Richmond (“FRB Richmond”) that it would generate more than $3.1 billion in
                  post-tax profit with the completion of an asset sale on November 23, 2010. At
                  that point, nearly one year after its exit, Bank of America satisfied the terms
                  agreed to during the institution’s exit from TARP in December 2009.




SIGTARP 11-005                                                                           September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                    34




                  Citigroup’s TARP Exit
                  The Conversion of Treasury’s CPP Investment to Common Stock,
                  Citigroup’s Repayment of TIP, and Treasury’s Sale of Its Citigroup
                  Common Stock
                  This section details the events leading to Citigroup’s repayment of and exit from
                  TARP. Citigroup’s TARP exit proceeded differently from the other institutions
                  discussed in this report, largely because Citigroup converted Treasury’s
                  $25 billion CPP investment from preferred stock to common stock. While
                  Treasury’s $20 billion TIP investment in Citigroup remained subject to repayment
                  procedures similar to those pertaining to other SCAP institutions, Citigroup was
                  required to raise additional capital beyond the minimum established by the
                  November 2009 guidance. The SIGTARP report, “Extraordinary Financial
                  Assistance Provided to Citigroup, Inc.,” issued on January 13, 2011, describes in
                  detail the process by which Citigroup sought to and ultimately repurchased the
                  TIP trust preferred securities, as well as the trust preferred securities held by
                  Treasury pursuant to AGP, and thus exited those aspects of its participation in
                  TARP. In addition to summarizing the relevant events described in that report,
                  this section adds several additional details. Figure 6 below shows the timeline of
                  key events related to Citigroup’s repayment and exit from TARP.




SIGTARP 11-005                                                                       September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                                                               35



FIGURE 6
KEY TARP REPAYMENT EVENTS FOR CITIGROUP (C)

                                              Nov-Dec 2009
                                              FRBNY conducts
                                              2nd stress test using
                                              new data &
                                              assumptions to
                                              determine amount
                                              C would need to
                                              raise to repay TIP
           Sep 11, 2009                                                                                   Dec 13-14, 2009
           Treasury’s converts                 Nov 5, 2009                        Dec 9, 2009             C submits final
           $25B CPP investment                 FRBNY notifies C          C submits first formal           repayment proposal;
           in C to common stock;               that ineligible to                  proposal to            FRB approves on
           C discusses TIP                     repay subject to           repurchase all $20B             12/14; C announces         Dec 23, 2009
           repayment with                      1-for-2 provision in      preferred stock (TIP)            offering                   C repays $20B (TIP)
           FRBNY                               Nov 2009 guidance           and terminate AGP              > $17.6B ISSUANCE**        and AGP is terminated


 Citigroup, Inc. (C)

     SEP 2009          OCT 2009           NOV 2009                    DEC 2009                                                           JAN 2010 FEB 2010
 Post-Nov 2009 Guidance Repayments


                              Nov 3, 2009             Nov 24, 2009     Dec 1-2, 2009                                       Note: Issuances commenced after announcement
                          FRB issues non-              Deadline for    BAC submits final proposal;                         and were completed at a later date
                            public revised         repayment plans     FRB approves on 12/2; BAC                           *BAC issued common equivalent securities,
                       guidance with 1-for-        required by FRB     announces equity offering                           which converted to common stock on Feb 24, 2010
                              2 expedited                 guidance     > $19.3B ISSUANCE*                                  **C also issued $3.5B in tangible equity units
                         repayment option




                                                                                                  Dec 9, 2009
                                                                                                  BAC repays $45B and
                                                                                                  exits TARP
Sources: SIGTARP, OFS, FRB, Citigroup, and Bank of America.




                                   As Citigroup’s share price continued to decline in late 2008 and early 2009,
                                   regulators recognized that concerns persisted about the quality of the institution’s
                                   capital. According to OCC examiners, the market viewed the $45 billion of
                                   TARP preferred equity Citigroup received as the equivalent of debt, and wanted
                                   Citigroup to be infused with more common equity. Citigroup approached
                                   regulators to discuss such an infusion, and FRB began to analyze alternatives to
                                   bolster Citigroup’s common equity levels – specifically its Tangible Common
                                   Equity (“TCE”).47 Treasury and regulators decided to focus on converting
                                   Treasury’s preferred stock to common stock.

                                   In addition to converting the preferred stock held by Treasury, regulators also
                                   advocated for Citigroup to incentivize private shareholders to convert their
                                   preferred stock to common stock. FDIC suggested that Citigroup suspend the
                                   dividends the institution paid to its private preferred shareholders in order to do
                                   so. Citigroup, for its part, worked to obtain commitments from private investors

47
     TCE, as defined by Citigroup, represents common equity minus goodwill and intangible assets, other than Mortgage
     Servicing Rights, net of related deferred taxes. Other companies may calculate TCE differently.


SIGTARP 11-005                                                                                                                                               September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                        36




                      to convert their preferred stock to common stock, pending Treasury’s agreement
                      to also convert its investment.48

                      Citing the “urgency of the situation” and the potential ramifications of not
                      completing the exchange offer, Treasury’s Investment Committee49 advised
                      Secretary Geithner to participate in the offer under the condition that Treasury’s
                      involvement was contingent upon an unspecified amount of private-sector
                      participation.50 According to a memorandum prepared by Treasury’s Investment
                      Committee on February 26, 2009, taking no action to convert the Citigroup
                      investment to common stock could have hastened the deterioration of Citigroup
                      and reverberated throughout the U.S. economy, contributing materially to weaker
                      economic performance and higher unemployment.

                      Treasury’s CPP Investment Was Converted from Preferred Stock to
                      Common Stock, Making Treasury Citigroup’s Single Largest
                      Common Stock Holder
                      On February 27, 2009, Treasury and Citigroup publicly announced the exchange
                      offer. Citigroup also agreed to exchange up to $27.5 billion of existing private
                      preferred and trust preferred stock to common stock.51 Through a press release,
                      Citigroup CEO Vikram Pandit announced that the singular goal of the exchange
                      was to increase the institution’s TCE from the fourth quarter 2008 level of
                      $29.7 billion to as much as $81 billion.

                      Citigroup’s stock price stabilized shortly after the exchange was announced, but
                      the transaction could not be completed before the execution of an agreement
                      between Treasury and Citigroup on June 9, 2009. On July 23, 2009, and
                      July 30, 2009, Treasury converted its $25 billion in Citigroup preferred stock to
                      common stock equivalent, an interim security that would convert to common
                      stock upon authorization.



48
   A Citigroup executive sent an email to Secretary Geithner on February 21, 2009, stating that Citigroup had $15 billion
   of private preferred stock “ready to convert” should Treasury agree to convert some of its investment. The executive
   also indicated that the proposed conversion, combined with asset sales, would boost the institution’s TCE to a
   satisfactory level “without having the [U.S. Government] own too much of Citi.”
49
   Treasury’s TARP Investment Committee was created to serve as a decision-making body to approve the investment
   decisions made under TARP authority. The Investment Committee consists of TARP’s Chief Investment Officer and
   senior Treasury officials from financial markets, economic policy, financial institutions, and financial stability.
50
   Treasury would assume additional risk by converting the preferred securities it held to more junior common equity,
   and forgo revenue from dividend payments owed to Treasury under the CPP preferred investment agreement. Treasury
   also agreed to exchange the preferred stock issued under TIP and AGP for trust preferred securities with the dividend
   rate on the new securities remaining unchanged. The final term sheet specified that Treasury would convert an amount
   of preferred stock equal to the amount converted by private equity holders, up to the $25 billion issued under CPP,
   provided that private equity holders converted at least $11.5 billion worth of preferred stock.
51
   Citigroup would later increase the amount of the exchange offer to $33 billion to meet the regulatory requirements
   announced with the results of the SCAP stress tests.


SIGTARP 11-005                                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                 37




                         Around this time, FDIC expressed concern about Citigroup’s management and its
                         liquidity. In response to these concerns, Citigroup assured regulators that it would
                         take specific action to strengthen its supervisory oversight of the bank’s
                         management and undergo a management review conducted by an independent
                         third party consultant agreed to by all the regulators. Then-FDIC Chairman Bair
                         told SIGTARP that some of the promises Citigroup made were “half-filled.”
                         While she said she was pleased with some of the management changes that
                         resulted from the review, she added that she “thought there would have been more
                         changes at the top.” However, according to OCC, the independent management
                         review was consistent with Citigroup’s assurances, and then Comptroller Dugan
                         told SIGTARP that he was unaware of any unfulfilled promises.

                         The common stock equivalent Treasury received in late July 2009 ultimately
                         converted to approximately 7.7 billion shares of common stock at $3.25 per share
                         on September 11, 2009. At the time, Treasury became the largest single
                         shareholder of Citigroup, holding approximately 33.6% of Citigroup common
                         stock.52 The conversion would ultimately affect Citigroup’s exit from CPP
                         because the guidance outlining the process and criteria whereby SCAP institutions
                         were permitted to repurchase TARP preferred shares did not apply to Treasury’s
                         common stock investment in Citigroup. Instead – unlike the other SCAP
                         institutions that received CPP funds – Citigroup’s exit from the program was
                         dependent upon Treasury selling the common stock it held to the public market.
                         Treasury ultimately sold its Citigroup stock into the market from April 26, 2010,
                         through December 10, 2010.

                         Citigroup Sought to Repay TIP and Regulators Debated the Amount
                         and Composition of the Capital Citigroup Would Be Required
                         to Raise
                         After converting its CPP investment in Citigroup to common stock, Treasury still
                         held the $20 billion in trust preferred securities invested through TIP. Citigroup
                         was permitted to repurchase this investment subject to approval from FRB, the
                         holding company’s primary Federal regulator.53 On September 11, 2009 – the
                         same day the CPP conversion was completed – Citigroup CEO Pandit met with
                         Federal Reserve Bank of New York (“FRBNY”) President William Dudley to
                         discuss repaying TIP and terminating the ring-fence guarantee provided by the
                         Government through AGP. During the meeting, Citigroup presented its financial
                         condition, including the results of an internal stress test.




52
     The agreed-upon price per share was based on the average of Citigroup’s stock price over the previous 20 days.
53
     As noted above, the SIGTARP report, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,”
     January 13, 2011, describes in detail the process by which Citigroup sought to and ultimately did repurchase the TIP
     trust preferred securities, as well as the trust preferred securities held by Treasury pursuant to AGP, and thus exited
     those aspects of its participation in TARP.


SIGTARP 11-005                                                                                               September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                               38




                         FRBNY concluded that the information provided by Citigroup about its financial
                         condition was insufficient to determine whether or not Citigroup was in a
                         condition to repay TIP and terminate AGP. FRB later told Citigroup to wait until
                         the agency issued revised guidance to remaining SCAP institutions on TARP
                         repayment. FDIC also conducted an independent analysis of Citigroup’s planning
                         and forecasting processes and identified many of the same issues identified by
                         FRBNY.

                         Nonetheless, regulators continued to discuss Citigroup’s condition and prospects
                         for repaying Treasury’s $20 billion TIP investment and terminating AGP.
                         According to FRB Governor Tarullo, given Citigroup’s “travails, its challenges,”
                         regulators would “treat them differently than a lot of institutions.” He added that
                         Citigroup would have to raise more capital, “way beyond 1-for-2.” According to
                         FDIC, regulators had agreed during the late October meetings that Citigroup
                         would need to raise a minimum of $1 in capital for every $1 in TARP funds it
                         repaid. OCC also stated that all regulators understood that Citigroup would be
                         held to a higher standard, up to 1-for-1, though neither then-Comptroller Dugan
                         nor OCC staff recalled a formal agreement during the late October meetings
                         establishing such a requirement.54

                         While discussing Citigroup’s capital needs, regulators moved closer to issuing the
                         November 2009 repayment guidance to all SCAP institutions. However, some
                         Treasury and FRB officials were concerned that publicizing the guidance might
                         stigmatize Citigroup because the institution would not be eligible to exit subject to
                         the 1-for-2 minimum provision allowing consideration for expedited repayment.
                         According to a former senior Treasury official, the concern within Treasury “was
                         all about confidence and stability,” with officials wary of taking any action that
                         might destabilize an institution. Similarly, an FRB governor told SIGTARP that
                         “if ultimately we’re saying those that are repaying are healthy, then we’re
                         implicitly saying that those that won’t aren’t.” FRB decided to issue the revised
                         guidance non-publicly.

                         On November 5, 2009, an FRBNY official met with Citigroup CEO Pandit and
                         Citigroup’s Chief Financial Officer to discuss the revised guidance. During the
                         meeting, the FRBNY official informed Citigroup management that the 1-for-2
                         provision would not apply to Citigroup. Instead, Citigroup would have to repay
                         Treasury’s $20 billion TIP investment with a larger proportion of newly raised
                         common equity than other SCAP institutions. That amount would be subject to
                         the results of a repayment stress test to be conducted by FRBNY, FRB, and OCC
                         starting on November 9, 2009. The repayment stress test for Citigroup used the
                         format and process of the original SCAP stress test, but several data inputs were
                         updated. For example, the original SCAP stress test used Citigroup financial data
54
     A draft version of the guidance disseminated on the same day as one of the meetings held at Treasury notes that in
     some circumstances an institution may be required to fully offset the redemption of Treasury capital by raising $1 of
     new private common equity and $1 of new private preferred equity for every $2 in TARP funds being repaid.


SIGTARP 11-005                                                                                              September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                          39




                        as of December 31, 2008, while the repayment stress test used financial data as of
                        September 30, 2009. The worst-case unemployment rate used in the stress test
                        was increased from 10.4% to 11.1% to reflect an increase in the actual
                        unemployment rate from 8.9% in April 2009 to 10% in November 2009. While
                        actual housing prices had risen during that period, the worst-case forecast for
                        housing prices in the repayment stress test was maintained at the same level used
                        in the SCAP stress test.

                        The stress test was not the only factor influencing the assessment of Citigroup’s
                        capital needs to exit TARP. Complicating the analysis were other variables that
                        could impact the institution’s access to capital, including a decision on whether to
                        terminate the ring-fence guarantee provided through AGP and a decision by
                        Treasury on whether to grant a blanket exception to a rule impacting the sale of
                        Citigroup common stock held by Treasury. Because Citigroup would still hold
                        CPP funds, a decision on whether the institution would remain subject to stricter
                        compensation restrictions, including being subject to the purview of the Special
                        Master for TARP Executive Compensation, was also pending resolution.

                        Announcement of Bank of America’s Repayment Intensified Market
                        Speculation About Citigroup’s Repayment Plans and Citigroup
                        Requested to Exit from AGP in Addition to TIP
                        As regulators discussed Citigroup’s capital raise requirements, Bank of America’s
                        December 2, 2009, announcement that it would repay TARP intensified market
                        speculation about Citigroup’s repayment prospects. That day, a Citigroup
                        executive sent news reports to OCC highlighting some of the speculation.
                        Subsequent media reports speculated on the possibility that no repayment
                        agreement would be reached before the end of the year. According to an FRB
                        email, Citigroup CEO Pandit also voiced concern to a senior Treasury official that
                        Citigroup might become stigmatized by its continued participation in TIP and
                        wondered how to respond publicly to the news of Bank of America’s exit from
                        TARP. When asked about the conversation, the Treasury official told SIGTARP
                        that Mr. Pandit was “concerned about being the last one in extraordinary
                        assistance from a competitive standpoint, for recruiting employees.” Mr. Pandit
                        told SIGTARP that “having $45 billion from the Government had no positive
                        impact on Citigroup’s image” and also confirmed that the desire to escape
                        management compensation restrictions was a factor motivating Citigroup’s desire
                        to exit TARP.55

                        In the midst of the media speculation, regulators continued to seek consensus on
                        the composition of the capital raise that would be required of Citigroup to repay
                        TIP. That week, Citigroup specified that the institution was requesting a

55
     As detailed in SIGTARP’s report, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” there were several
     motivations for Citigroup’s decision to repay its TIP funds when it did, which included executive compensation
     restrictions, employee morale, and the institution’s image.


SIGTARP 11-005                                                                                           September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                             40




                       simultaneous termination of the ring-fence guarantee provided through AGP.
                       Then-FDIC Chairman Bair expressed concern about terminating the ring-fence,
                       worrying that Citigroup’s request was “all about compensation.” FRB
                       recalculated the amount Citigroup would be required to raise to reflect the
                       additional capital offset necessary to terminate AGP. FRB determined that
                       Citigroup would need to raise a total of $23.1 billion in common equity to meet
                       the 1-for-1 TIP repayment requirement and simultaneously offset the capital hit
                       that would result from terminating the ring-fence received through AGP.

                       Citigroup Submitted Three Proposals to Fully Repay TIP and
                       Terminate Its Participation in AGP
                       On December 9, 2009, Citigroup sent
                                                                                Citigroup Proposal 1
                       FRBNY its first formal repayment                           (Dec. 9, 2009)
                       proposal. The proposal, like the two that
                       followed on December 10, 2009, and                       • $15 billion common stock issuance
                                                                                • $2.25 billion common stock
                       December 13, 2009, proposed to fully                     overallotment option
                       repay all $20 billion in Citigroup TIP                   • $2.5 billion tangible equity units
                       trust preferred securities and to terminate              • $1 billion employee stock
                                                                                compensation
                       Citigroup’s involvement in AGP.
                       Citigroup proposed to issue $15 billion in
                       common stock and to supplement the
                                                                                Tangible Equity Units
                       raise with a $2.25 billion overallotment
                       option (or green shoe),56 $2.5 billion in                Innovative financial instruments that
                       tangible equity units,57 and $1 billion in               allowed Citigroup to raise additional
                                                                                common equity beyond the common stock
                       employee stock compensation. FRBNY                       it planned to issue.
                       responded to Citigroup’s proposal by
                       informing the institution that the capital               Citigroup would receive full payment for
                                                                                the instruments in advance in exchange for
                       raise detailed in the proposal did not                   stock to be delivered in three years and
                       contain enough common equity.                            interest and principal payments on a note
                                                                                during the intervening period. Based on a
                                                                                review of the instrument’s characteristics,
                       On December 10, 2009, Citigroup                          FRB agreed to permit Citigroup to treat
                       submitted a second proposal, in which it                 80% of the value of the tangible equity
                       proposed to increase the amount it would                 units as Tier 1 Capital.
                       issue through each type of capital
                       instrument. Citigroup now proposed to issue $17 billion in common stock
                       supplemented with a $2.55 billion overallotment option, $3.5 billion in tangible

56
   In this case, the overallotment option allowed the underwriters to sell up to $2.25 billion more than the initial allotment
   of $15 billion, if the initial allotment was fully subscribed.
57
   Citigroup requested that 80%, or $2.0 billion, of the tangible equity units count toward common equity. The tangible
   equity units consisted of a stock purchase contract and a junior subordinated amortizing note. The stock purchase
   contract has a settlement date of December 15, 2012, and prior to completion of a 10:1 reverse stock split would have
   settled for between 25.3968 and 31.7460 shares of Citigroup common stock (between 2.5397 and 3.1746 shares post
   split). The amortizing notes will pay holders equal quarterly installments of $1.875 per amortizing note, totaling a
   7.5% cash payment per year for each $100 of tangible equity units. The final payment is scheduled for
   December 15, 2012.


SIGTARP 11-005                                                                                              September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                           41



                                                                            Citigroup Proposal 2
                        equity units, and $1.7 billion in               (Dec. 10, 2009)
                        employee stock compensation. An
                        FRBNY official told SIGTARP that at          • $17 billion common stock issuance
                                                                     • $2.55 billion common stock
                        the time FRBNY considered the                overallotment option
                        amount of capital to be adequate but         • $3.5 billion tangible equity units
                        was concerned that Citigroup might not       • $1.7 billion employee stock
                                                                     compensation
                        be able to fill its overallotment option,
                        which was dependent on market
                        demand for its stock. In light of this concern, FRBNY informed Citigroup that
                        the next repayment proposal should include a clause stipulating actions that
                        Citigroup would need to take in the event the overallotment option was not
                        sufficiently exercised.

                        On Sunday, December 13, 2009, Citigroup submitted its final proposal to
                        FRBNY. Unlike previous proposals, the latest proposal included capital raise
                        conditions and the cancellation of $1.8 billion of trust preferred securities in
                        connection with the termination of AGP. The proposal also included an
                        acknowledgment that “if the offering of common stock and tangible equity units
                        [did] not generate at least $21.3 billion of additional equity capital, the regulators
                        would expect Citigroup to issue additional [trust preferred securities] in a ratio of
                        $2 for every $1 the equity raised falls short of $21.3 billion, subject to a minimum
                        equity raise of $19.8 billion, up to a maximum of $3.0 billion of [trust preferred
                        securities].” Citigroup would have had to fill at least $1.5 billion of the
                        overallotment option in order to satisfy the requirement to generate additional
                        equity capital of $21.3 billion.

                        In part to address then-FDIC Chairman
                                                                            Citigroup Proposal 3
                        Bair’s concern that the ring-fence                    (Dec. 13, 2009)
                        termination was motivated by a desire
                        to remove compensation restrictions,                • $17 billion common stock issuance
                        Treasury and regulators specified in the            • $2.55 billion common stock overallotment
                                                                              option
                        ring-fence termination agreement that               • $3.5 billion tangible equity units
                        during 2010, FRB would review the                   • $1.7 billion employee stock
                        compensation of the institution’s top 30              compensation
                                                                            • Agreement to issue additional trust
                        earners, in consultation with FDIC and                preferred securities as a backstop
                        OCC. With this agreement in place,                    against failing to meet equity targets
                        regulators signed off on the proposal.

                        The terms of the cancellation of AGP trust preferred securities, under which
                        $1.8 billion was canceled, resulted from separate negotiations with Treasury.58
                        The Government kept the other $5.2 billion in Citigroup trust preferred securities
                        as payment for its guarantee of the asset pool for one year. According to this final

58
     For further details on the termination of Citigroup’s participation in AGP, see SIGTARP’s report “Extraordinary
     Financial Assistance Provided to Citigroup, Inc.,” issued on January 13, 2011.


SIGTARP 11-005                                                                                           September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                          42




                  Citigroup repayment proposal, Citigroup expected a $1.1 billion capital benefit to
                  result from the cancellation of the $1.8 billion in AGP trust preferred securities
                  that the Government surrendered. With this $1.1 billion benefit added to the
                  expected new capital raise of $24.05 billion, Citigroup expected its proposal
                  would generate up to $25.15 billion in capital.

                  FRB Approved Citigroup’s Proposal to Fully Repay TIP and
                  Terminate Its Participation in AGP; Treasury Sold Its CPP
                  Investment in Citigroup
                  On Monday, December 14, 2009 – one day after Citigroup submitted its final
                  proposal – FRB sent Citigroup a letter indicating FRB approved Citigroup’s final
                  request to repay the TIP capital and terminate AGP. The letter also detailed the
                  conditions Citigroup would need to meet to exit the two programs. On
                  Wednesday, December 16, 2009, Citigroup priced its offering and announced the
                  details of the corresponding capital raise, which Citigroup began executing that
                  same day.

                  Citigroup’s common stock offering occurred nearly simultaneously with Wells
                  Fargo’s, possibly impacting market demand for Citigroup’s stock. Citigroup
                  expressed frustration that Wells Fargo issued common stock to repay TARP
                  nearly simultaneously. Mr. Pandit told SIGTARP, “Wells Fargo was perturbing
                  in issuing equity right before we did.” He added, “Anytime you have $20 billion
                  in equity to raise, and you go to bank buyers and there is another large raise, of
                  course there is an impact from that.”

                  Ultimately, Citigroup did not meet the $1.5 billion overallotment option necessary
                  to satisfy the total $21.3 billion additional equity capital requirement. Instead, the
                  institution raised only $600 million from the overallotment, resulting in a
                  $900 million capital shortfall and a need to raise at least $1.8 billion in additional
                  trust preferred securities during the first quarter of 2010 to meet the requirement
                  agreed to with the regulators if the equity raise fell short.

                  On December 23, 2009, Citigroup, Treasury, FDIC, and FRBNY all signed the
                  Termination Agreement for Citigroup’s participation in AGP. That same day,
                  Treasury and Citigroup also signed an agreement for the repayment of TIP. In
                  March 2010, Citigroup raised $2.3 billion in trust preferred securities, satisfying
                  the capital raise requirement under the terms of its repayment proposal.

                  Although Treasury initially planned to sell some of its common stock investment
                  in Citigroup concurrently with the institution’s equity offering, it retained all of its
                  CPP investment after Citigroup repaid TIP and terminated AGP. On
                  March 29, 2010, Treasury announced that, under a prearranged written trading
                  plan, it would sell its Citigroup common stock in an “orderly and measured”
                  fashion over the course of 2010, subject to market conditions. Treasury
                  ultimately sold this stock into the market from April 26, 2010, through


SIGTARP 11-005                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                  43




                  December 10, 2010, generating $31.85 billion in proceeds to Treasury, or
                  $6.85 billion more than Treasury’s original CPP investment in Citigroup. On
                  January 25, 2011, Treasury auctioned warrants to purchase common stock in
                  Citigroup that it received through CPP, TIP, and AGP for an aggregate of
                  $312.2 million.




SIGTARP 11-005                                                                      September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                                                              44




                             Wells Fargo’s TARP Exit
                             This section details the events leading to Wells Fargo’s repayment of TARP funds
                             received through CPP. Wells Fargo proposed meeting the 1-for-2 provision in
                             part by issuing stock through a private equity transaction. Regulators discussed
                             how to treat this transaction at length until December 12, 2009, when the
                             institution finally removed the transaction from its repayment proposal, and a
                             final agreement was reached for Wells Fargo to exit TARP two days later.
                             Figure 7 below shows the timeline of key events related to Wells Fargo’s
                             repayment and exit from TARP.
FIGURE 7 
KEY TARP REPAYMENT EVENTS FOR WELLS FARGO (WFC)

                                                                                                                    Dec 12, 2009
                                                                                                                    WFC proposals eliminates
                                                                                                                    Prudential transaction and
                                                                                                                    increases common
                                                                                                                    issuance to $10.4B
                                                                  Nov 24, 2009
                                                          WFC repayment plan
                                                         notes that it has “been                                         Dec 14, 2009
                                                          asked by Treasury to                      Dec 10, 2009         WFC submits final
                                                       repay TARP;” Proposes                WFC repayment plan           proposal; FRB
                                                       private $4.5B Prudential          includes $2.8B common           approves; WFC           Dec 23, 2009
                                                              transaction but no              issuance along with        announces offering      WFC repays $25B
                                                             common issuance               Prudential transaction        > $12.2B ISSUANCE       and exits TARP


            Wells Fargo & Company (WFC)

            SEP 2009           OCT 2009           NOV 2009                         DEC 2009                                                          JAN 2010 FEB 2010
            Post-Nov 2009 Guidance Repayments


                                      Nov 3, 2009                Nov 24, 2009       Dec 1-2, 2009                   Dec 13-14, 2009              Dec 23, 2009
                                   FRB issues non-                Deadline for      BAC submits final proposal;     C submits final proposal     C repays $20B and AGP is
                                     public revised           repayment plans       FRB approves on 12/2; BAC       to repay TIP and             terminated
                                guidance with 1-for-          required by FRB       announces equity offering       terminate participation in
                                       2 expedited                   guidance       > $19.3B ISSUANCE*              AGP; FRB approves on
                                  repayment option                                                                  12/14; C announces
                                                                                                                    offering
                                                                                                                    > $17.6B ISSUANCE**

             Note: Issuances commenced after announcement and were completed at a later date
             *BAC issued common equivalent securities, which converted to common stock on                   Dec 9, 2009
             Feb 24, 2010                                                                                   BAC repays $45B and
             **C also issued $3.5B in tangible equity units                                                 exits TARP


        Sources: SIGTARP, OFS, FRB, Wells Fargo, Citigroup, and Bank of America.




SIGTARP 11-005                                                                                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                             45




                       OCC officials told SIGTARP that Wells           Wells Fargo Proposal 1
                                                                       (Sept. 22, 2009)
                       Fargo originally planned to repay TARP
                       over time by accumulating and retaining         Payments: 4 installments (4Q09 –
                       earnings, and making smaller, partial              3Q10)
                       TARP repayments using those earnings
                       rather than making a one-time repayment using proceeds from a common stock
                       issuance. Wells Fargo’s CEO John Stumpf explained to SIGTARP that the
                       institution sought to repay TARP while minimizing the dilution to current
                       shareholders that would result from issuing new common stock. On
                       September 22, 2009, bank executives provided FRB with a TARP repayment plan
                       that reflected this strategy. The plan envisioned Wells Fargo repaying Treasury’s
                       $25 billion TARP investment over four installments, proposing to make the final
                       payment in the third quarter of 2010. Regulators, however, were in the midst of
                       developing what would become the November guidance that would govern
                       repayments.

                      Wells Fargo Sought to Use Settlement with Prudential Toward
                      the 1-for-2 Provision
                                                                       Wells Fargo sought to apply the
                         Put Option                                    settlement of a pending transaction with
                            An option contract giving the owner
                                                                       Prudential Financial, Inc. (“Prudential”)
                            the right, but not the obligation, to sell toward the 1-for-2 provision. As a
                            a specified amount of an underlying        result of acquiring Wachovia in
                            asset at a set price within a specified
                            time.
                                                                       December 2008, Wells Fargo owned a
                                                                       controlling interest in a retail securities
                                                                       brokerage joint venture with Prudential.
                       Prudential elected to exercise a “put option” to sell its minority interest in the joint
                       venture to Wells Fargo, creating a $4.5 billion59 obligation that Wells Fargo was
                       required to settle with Prudential by January 4, 2010. This obligation could be
                       settled in cash or in Wells Fargo common stock, which Prudential intended to
                       liquidate by selling to public markets.
                                                                                     Wells Fargo Proposal 2
                       Wells Fargo planned to issue common stock to                   (Nov. 24, 2009)
                       settle the Prudential transaction and apply the
                                                                                     Payments: 3 installments
                       private issuance toward the 1-for-2 provision                 Sources of capital raise:
                       to seek partial repayment.60 On the day FRB                   • $4.5 billion Prudential (private)
                       issued the revised guidance, Wells Fargo met                    common stock issuance
                                                                                     • $1.2 billion employee stock
                       with regulators to discuss this possibility, but                issuance
                       did not receive clarity on whether the

59
   In its November 4, 2009, letter, Wells Fargo estimated the value of Prudential’s minority interest to be up to $5 billion.
   In repayment proposals later submitted to FRB, Wells Fargo specified that it planned to issue $4.5 billion of common
   stock to settle with Prudential. The latter amount is used here for simplicity.
60
   The November 2009 guidance stated that firms may repay all or part of TARP by “issu[ing] $1 of new common equity
   for every $2” repaid so long as the firm can, among other things, show “recent access to public equity markets”
   (emphasis added).


SIGTARP 11-005                                                                                              September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                 46




                  Prudential transaction would count. On November 24, 2009, Wells Fargo
                  submitted a TARP repayment proposal that relied on receiving credit for the
                  Prudential transaction.

                  In early December 2009, regulators discussed Wells Fargo’s request to count
                  stock issued privately through the Prudential transaction toward the 1-for-2
                  provision. While the private transaction did not demonstrate public market
                  access, it would improve the quality
                  of Wells Fargo’s capital by               Wells Fargo Proposal 3 (Dec. 3, 2009)
                  increasing the institution’s common
                                                            Payments: 2 installments
                  equity. As regulators discussed the       Sources of capital raise:
                  request, on December 3, 2009, one         • $1.25 billion public common stock
                  day after FRB approved Bank of              issuance
                                                            • $4.5 billion Prudential (private) common
                  America’s TARP repayment plan,              stock issuance
                  Wells Fargo submitted a proposal to       • $1.1 billion employee stock issuance
                  repay half, or $12.5 billion, of
                  Treasury’s $25 billion TARP
                  investment by the end of 2009, and to repay the remainder in the second quarter
                  of 2010. The institution proposed to use the 1-for-2 expedited repayment
                  provision for the first payment, in part by using the $4.5 billion common stock
                  issued through the Prudential transaction.

                  However, FDIC indicated the Prudential transaction did not meet the
                  requirements of the expedited repayment provision established in the
                  November 2009 guidance. On December 7, 2009, at the bank’s request, FDIC
                  and Wells Fargo met to discuss the transaction. During the meeting, then-FDIC
                  Chairman Bair and other FDIC officials told Wells Fargo that the plan would
                  have to comply with the November 2009 guidance and that FDIC was not
                  supportive of counting the Prudential transaction toward the 1-for-2 provision.

                  Regulators Informed Wells Fargo that only a Proposal for Full TARP
                  Repayment Could Provide the Institution with Certainty
                  Although Wells Fargo planned to
                  make partial TARP repayments,             Wells Fargo Proposal 4 (Dec. 10, 2009)

                  officials from the Federal Reserve        Payments: 2 installments
                  Bank of San Francisco (“FRB San           Sources of capital raise:*
                  Francisco”) told SIGTARP that the         • $2.8 billion common issuance
                                                            • $4.5 billion Prudential (private) common
                  bank also sought to signal certainty        stock issuance
                  to markets by publicly stating that       • $1.7 billion employee issuance
                  regulators had fully approved a plan      • $0.4 billion capital via reduction in publicly
                                                              identified, high risk, liquidating portfolios
                  that would allow for an exit from         • $0.8 billion core deposit intangible
                  TARP. However, according to                 amortization
                  regulators, only the immediate
                                                            *Wells Fargo also proposed to use $2.8 billion
                  portion of a multi-stage repayment          in retained earnings
                  plan could be approved, so the


SIGTARP 11-005                                                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                               47




                  institution could not publicly announce that regulators had approved a full
                  repayment plan or state definitively that it would not be required to raise
                  additional capital to fund later repayments.

                  FRB San Francisco officials told SIGTARP that regulators had concerns with the
                  institution relying on earnings to repay over time, noting, “what if you have a bad
                  quarter?” and pointing out that the economic outlook was uncertain in late 2009.
                  The only way for the institution to signal certainty to markets regarding its exit
                  from TARP was to repay all of Treasury’s $25 billion investment in full.
                  Moreover, these officials noted, because regulators might not allow the Prudential
                  transaction to count toward the 1-for-2 provision, its inclusion in future proposals
                  would also complicate matters and prolong deliberation.

                  Nonetheless, on December 10, 2009, Wells Fargo submitted a revised proposal
                  that again listed the Prudential transaction and included earnings as a key source
                  of funds for repayment. The institution also continued to propose repayment over
                  two installments – approximately
                  $14 billion in January 2010 and the          Wells Fargo Proposal 5 (Dec. 11, 2009)
                  remaining $11 billion by
                                                               Payments: 2 installments
                  March 31, 2010. Wells Fargo pointed          Sources of capital raise:*
                  to Bank of America’s recent capital          • $5.0 billion common issuance
                  raise, which did not consist entirely of     • $4.5 billion Prudential (private) common
                  newly issued common stock, and stated stock         issuance
                                                               • $1.7 billion employee issuance
                  that similar principles should also          • $0.5 billion gain on asset sale
                  apply to Wells Fargo. However, given         • $0.4 billion capital via reduction in publicly
                                                               identified, high risk, liquidating portfolios
                  its reliance on the Prudential               • $0.8 billion core deposit intangible
                  transaction, officials from both FRB         amortization
                  and FDIC considered the proposal
                                                               *Wells Fargo also proposed to use
                  unacceptable.                                   $2.8 billion in retained earnings

                  On December 11, 2009, Wells Fargo          Wells Fargo Proposal 6 (Dec. 11, 2009)
                  submitted a new proposal, almost           Payment: 1 installment
                  doubling the amount of common stock        Sources of capital raise:
                  it proposed to issue, but still including  • $5.0 billion common issuance
                                                             • $4.5 billion Prudential (private) common
                  the Prudential transaction and adding      stock issuance
                  gains on asset sales. While OCC was        • $2.25 billion employee issuance
                  supportive of this proposal, FDIC was      • $1.5 billion post-tax profit on asset sale
                  not. Wells Fargo submitted a second
                  proposal that day, which, among other adjustments, increased the amount of
                  employee stock it proposed to issue and the amount of proceeds it proposed to
                  generate from asset sales.




SIGTARP 11-005                                                                                 September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                        48




                  Agreement Was Reached Soon After Wells Fargo Removed the
                  Prudential Transaction and Increased the Amount of Common Stock
                  It Proposed to Issue
                  On Saturday, December 12, 2009,          Wells Fargo Proposal 7 (Dec. 12, 2009)
                  after a week of media speculation
                  that Citigroup was negotiating           Payment: 1 installment
                                                           Sources of capital raise:
                  repayment of TIP, Wells Fargo            • $10.4 billion common issuance (plus
                  significantly revised its repayment        overallotment option)
                  proposal, more than doubling the         • $1.35 billion employee issuance (to go
                                                             first, if overallotment exercised)
                  proposed public issuance to              • $1.5 billion post-tax profit on asset sale
                  $10.4 billion and removing the
                  Prudential transaction. With the
                  encouragement of FRB San Francisco, Wells Fargo also included the possibility
                  of an overallotment option, which could reduce or eliminate the $1.35 billion in
                  common stock issued to employees. Over the weekend, Wells Fargo and FRB
                  worked to review the specific assets Wells Fargo proposed to sell and to develop a
                  proposal that addressed regulators’ preference for first reducing asset sales rather
                  than the employee stock issuance in the event the overallotment was exercised.

                  On Monday, December 14, 2009, the
                                                           Wells Fargo Proposal 8 (Dec. 14, 2009)
                  same day that Citigroup announced
                  its agreement with Treasury and          Payment: 1 installment
                  regulators to repay TARP funds           Sources of capital raise:
                                                           • $10.4 billion common issuance (plus
                  received through TIP, FDIC agreed          overallotment option)
                  to Wells Fargo’s proposal as long as     • $1.35 billion employee issuance
                  asset sales would be eliminated first    • $1.5 billion post-tax profit on asset sales
                                                             (to go first, if overallotment exercised)
                  by the exercise of the overallotment
                  option. An FDIC official noted,
                  “We would expect that the green shoe would cover the entire amount of the raise
                  if demand is sufficient.” Around midday, Wells Fargo submitted its final
                  proposal to regulators, which conformed to regulators’ expectations regarding
                  asset sales. That afternoon, FRB approved Wells Fargo’s CPP repayment request,
                  and the institution announced shortly thereafter that it had reached an agreement
                  with regulators to repay Treasury and exit TARP.

                  Wells Fargo CEO Stumpf told SIGTARP that multiple factors were driving the
                  bank’s timeline to have its TARP repayment approved, including time pressures
                  to settle the Prudential transaction by early January 2010 and to access equity
                  markets before the end-of-year holidays. In discussing the decision to repay in
                  full by the end of 2009, Mr. Stumpf told SIGTARP, “I recall being guided by
                  what would be best for shareholders – and simply that.” Regulators also noted to
                  SIGTARP that Wells Fargo shareholders likely held a great deal of influence over
                  the company’s repayment proposals. Referring to the bank’s shareholders, an
                  FDIC official commented to SIGTARP, “It’s a very vocal group at Wells Fargo.
                  They’re legendary.”


SIGTARP 11-005                                                                           September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                       49




                  However, encouragement from Treasury may have also contributed to Wells
                  Fargo’s decision to repay in full through a one-time stock issuance. A letter
                  attached to Wells Fargo’s November 24, 2009, repayment proposal stated that
                  Wells Fargo was “asked by the U.S. Treasury to repay TARP.” The former Wells
                  Fargo CFO who signed the letter told SIGTARP that then-Treasury Assistant
                  Secretary Herb Allison and Wells Fargo CEO Stumpf discussed Treasury’s desire
                  to see Wells Fargo repay TARP and Treasury’s concern about the market’s
                  perception of the institution if it remained in TARP while its peers repaid. Mr.
                  Stumpf told SIGTARP he had a “couple of conversations” with Assistant
                  Treasury Secretary Allison, but recalled only discussing warrants and loan
                  modifications, rather than Wells Fargo’s repayment plans. Secretary Geithner,
                  however, told SIGTARP that he asked Assistant Secretary Allison to encourage
                  institutions to repay. According to Secretary Geithner, Treasury believed “the
                  financial system would be stronger if [TARP institutions] could demonstrate they
                  could raise private capital. So if you put pressure on firms to seek private capital,
                  the system becomes stronger.” Assistant Secretary Allison told SIGTARP that he
                  spoke to most of the remaining SCAP institutions about their TARP repayment
                  plans and that while it was up to regulators to decide when institutions would be
                  allowed to repay, “the message was that we want the money back as soon as you
                  can do this.” He added that firms also wanted to repay “because of executive
                  compensation and the negative stigma TARP had.”

                  Wells Fargo Completed a Successful Common Stock Offering and
                  Exited TARP
                  On December 14, 2009, Wells Fargo announced its $10.4 billion common stock
                  offering plus a $1.56 billion overallotment option. The next day, Wells Fargo
                  priced the $10.65 billion offering at $25 per share and completed its offering by
                  the end of the day, including fully subscribing the overallotment option. Its total
                  raise of $12.25 billion eliminated the need for any asset sales and reduced the
                  amount of shares issued to employees pursuant to the TARP repayment
                  agreement.

                  The following week, on December 23, 2009, Wells Fargo wired $25 billion plus
                  accrued dividends to Treasury, fully repaying the CPP investment and exiting
                  TARP. It was the same day that Citigroup repaid TIP and terminated its
                  participation in AGP.




SIGTARP 11-005                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                                                                        50




                                 PNC’s TARP Exit
                                 This section details the events leading to PNC’s repayment of and exit from TARP
                                 in February 2010. PNC’s repayment proposals included counting the sale of a
                                 subsidiary toward the 1-for-2 repayment option, seeking credit for both the profit
                                 and reduction of goodwill from the sale. After PNC received approval for TARP
                                 repayment and commenced its public offering, regulators and PNC realized they
                                 held different understandings of the role of the overallotment in TARP repayment
                                 and PNC’s limited control over whether the overallotment was exercised.
                                 Figure 8 below shows the timeline of key events related to PNC’s repayment and
                                 exit from TARP.
FIGURE 8
KEY TARP REPAYMENT EVENTS FOR THE PNC FINANCIAL SERVICES GROUP (PNC)
                                                                                                                                               Feb 1-2, 2010
                                                              Nov 24, 2009                              Dec 17, 2009               PNC submits final proposal;
                                                              PNC submits plan to repay              PNC accelerates                     FRB approves 2/02;        Feb 10, 2010
                                                              in “shareholder friendly              repayment plan to                PNC announces offering        PNC repays $7.6B
                                                              manner” in 2Q 2010                            1Q 2010                   > $3.5B ISSUANCE***          and exits TARP


 The PNC Financial Services Group (PNC)

  SEP 2009          OCT 2009           NOV 2009                    DEC 2009                                                                JAN 2010 FEB 2010
 Post-Nov 2009 Guidance Repayments


                            Nov 3, 2009           Nov 24, 2009       Dec 1-2, 2009                    Dec 13-14, 2009                   Dec 23, 2009
                        FRB issues non-            Deadline for      BAC submits final proposal;      C submits final proposal          C repays $20B and AGP is
                          public revised       repayment plans       FRB approves on 12/2; BAC        to repay TIP and                  terminated
                     guidance with 1-for-      required by FRB       announces equity offering        terminate participation in
                            2 expedited               guidance       > $19.3B ISSUANCE*               AGP; FRB approves on              WFC repays $25B and
                       repayment option                                                               12/14; C announces                exits TARP
                                                                                                      offering
                                                                                                      > $17.6B ISSUANCE**


                                                                                              Dec 9, 2009
                                                                                              BAC repays $45B and
                                                                                              exits TARP


                                                                                                           Dec 14, 2009
  Note: Issuances occurred after announcement and were completed at a later date                           WFC submits final proposal
  *BAC issued common equivalent securities, which converted to common stock on Feb 24, 2010                FRB approves; WFC
  **C also issued $3.5B in tangible equity units                                                           announces offering
  ***PNC also issued $2B in debt                                                                           > $12.2B ISSUANCE




Sources: SIGTARP, OFS, FRB, FDIC, PNC, Wells Fargo, Citigroup, and Bank of America.




SIGTARP 11-005                                                                                                                                                     September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                         51




                         PNC Accelerated Its TARP Repayment Plans After Other SCAP
                         Institutions Repaid in December 2009
                         PNC, the 12th-largest U.S. bank holding company, was the fourth SCAP
                         institution to repay TARP in the months immediately following the issuance of
                         the November 2009 revised repayment guidance. As early as June 2009, PNC’s
                         CEO James Rohr was publicly quoted as stating that the institution was going to
                         repay TARP “in a shareholder-
                         friendly manner.” After reviewing the PNC Proposal 1 (Nov. 24, 2009)
                         November 2009 guidance, PNC
                                                                  Repay in 2Q10
                         initially declined to seek expedited     • $1 billion common issuance
                         repayment through the 1-for-2 option,    • $1.6 billion dividends upstreamed from
                         instead opting to wait for FRB to          bank
                                                                  • $2.1 billion asset sale (PNC Global)
                         complete its review of the institution’s • $3.6 billion debt and/or hybrid
                         longer-term capital plan. Its              instruments ($0.3 billion for TARP
                         November 24, 2009, repayment plan          repayment; $3.3 billion to meet liquidity
                                                                    policy levels)
                         stated its intent to wait until the
                         second quarter of 2010 to fully repay
                         Treasury’s $7.6 billion CPP investment by using various sources of capital,
                         including proceeds from a $1 billion common stock offering and the sale of its
                         subsidiary service unit, PNC Global Investment Servicing (“PNC Global”).61

                         However, on December 17, 2009, just days after Citigroup and Wells Fargo
                         announced reaching an agreement with regulators to repay TARP, PNC submitted
                         a revised TARP repayment proposal to the Federal Reserve Bank of Cleveland
                         (“FRB Cleveland”), proposing to accelerate repayment to the first quarter of 2010
                                                                     and increase the common stock
                           PNC Proposal 2 (Dec. 17, 2009)
                                                                     issuance to $1.6 billion. Though well
                           Repay in 1Q10                             short of a 1-for-2 common stock
                           • $1.6 billion common issuance            issuance, PNC stated that the terms
                           • $1.7 billion asset sale (PNC Global)*
                                 $0.7 billion post-tax profit
                                                                     were consistent with the expedited
                                 $1.1 billion reduction in goodwill repayment option under the
                           • $0.8 billion other asset sale           assumption that FRB would count the
                           • $2.4 billion debt
                           * Figures do not total due to rounding.
                                                                     capital benefits generated through the
                                                                     sale of PNC Global toward meeting
                                                                     the provision.




61
     PNC Global was the largest single-source provider to the U.S. mutual fund industry and a servicer of the global
     investment industry.


SIGTARP 11-005                                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                 52




                  PNC Requested that Goodwill Reductions from Asset Sales
                  Be Counted Toward Repayment
                  Though FRB’s repayment guidance did
                  not mention the sale of assets, the sale of   Goodwill
                  PNC Global was a key component of
                                                                An intangible asset that, in an acquisition,
                  PNC’s repayment strategy. By                  represents the amount paid for a company
                  November 16, 2009, PNC had already            over the fair value of its assets.
                  identified, contacted, and met with five
                                                                Goodwill, like other intangible assets, is
                  potential buyers, receiving preliminary       excluded from regulatory Tier 1 Capital.
                  bids from at least three of them. PNC         The reduction of goodwill associated with
                  estimated the sale price at $2.3 billion,     asset sales – all else equal – increases
                                                                Tier 1 Capital and Tier 1 Common ratios
                  which would generate approximately            by reducing the amount of intangibles that
                  $1.6 billion in capital benefits for the      a firm is required to exclude from
                  firm, of which approximately                  regulatory capital.
                  $500 million represented PNC’s profit on
                  the transaction after deducting taxes. The remaining $1.1 billion was generated by
                  replacing goodwill with cash.

                  While PNC’s capital ratios would improve from the reduction in goodwill
                  resulting from the sale of PNC Global, the sale would generate no new common
                  equity for the institution. Further, no credit for the reduction of goodwill had
                  previously been given to other institutions seeking an expedited TARP
                  repayment. However, PNC argued
                  that because the institution would sell     PNC Proposal 3 (Jan. 15, 2010)
                  PNC Global at a value that equaled 35
                  times the subsidiary’s 2009 earnings,       • $2.4 billion common issuance
                                                              • From sale of PNC Global:
                  the sale would generate substantial               $0.7 billion post-tax profit at 1:2
                  cash without significantly reducing                      OR
                  future earnings. PNC further noted                $1.7 billion post-tax profit & goodwill
                                                                      reduction at 1:1
                  that the loss absorption capacity of the    • Remainder via other asset sales at 1:1
                  capital raised through asset sales was
                  no different than that of capital raised
                  through the issuance of new common           PNC Proposal 4 (Jan. 22, 2010)
                  stock.
                                                                 • $2.5 billion common issuance
                                                                 • $1.6 billion sale of PNC Global
                  On January 15, 2010, PNC proposed                    $0.5 billion post-tax profit
                  to increase the common stock offering                $1.1 billion goodwill reduction
                  to $2.4 billion and listed multiple            • $0.6 billion other future asset sales
                                                                 • $0.8 billion contingent common (only if
                  options for crediting the gains from the          PNC Global fails to close)
                  sale of PNC Global, but regulators had
                  yet to agree on whether the reduction
                  in intangible assets would receive credit toward the 1-for-2 provision.




SIGTARP 11-005                                                                                  September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                          53




                  PNC’s next repayment proposal, sent on January 22, 2010, increased the proposed
                  common stock offering by another $100 million to $2.5 billion, while still
                  requesting credit for the $1.1 billion in reduction of goodwill. OCC supported
                  PNC’s proposal and was concerned that requiring more issuance might
                  incentivize PNC to remain in CPP and repay through earnings over time – an
                  outcome OCC did not want. However, neither FDIC nor FRB approved of the
                  proposal, and both regulators suggested the institution submit a proposal that
                  included a larger common stock offering.

                  FDIC Consented to a Goodwill Reduction for Asset Sales but
                  Pushed for a $4 Billion Common Issuance
                  PNC wanted to announce both the PNC Global sale and the TARP repayment at
                  the same time on Monday, February 1, 2010. However, on January 28, The Wall
                                                                  Street Journal published an article
                    PNC Proposal 5 (Jan. 30, 2010)                leaking details of the then-secret sale
                                                                  of PNC Global and its connection
                    • $3.0 billion common issuance
                    • $0.45 billion overallotment option          with PNC’s TARP repayment efforts.
                       (potentially exercised; may reduce         The next day, FDIC suggested to
                       amount of debt issued)                     PNC’s CEO Rohr that the bank issue
                    • $1.8 billion sale of PNC Global
                    • $1.5-2.0 billion debt issuance (to maintain $4 billion in common stock.
                       liquidity until sale closes)               According to an FDIC email, Mr.
                                                                  Rohr rejected the idea.

                  Instead, on January 30, 2010, PNC sent FDIC a revised repayment plan, proposing to
                  issue $3 billion in common stock, along with the sale of PNC Global, but also including
                  the “potential exercise” of a $450 million overallotment option to supplement the public
                  offering. In addition, it extended the proposed closing date of the PNC Global
                  transaction from the second to the third quarter of 2010, and included a $1.5 billion to
                  $2.0 billion debt issuance. The debt issuance was critical to maintaining PNC’s liquidity
                  given the timing between the repayment of $7.6 billion of TARP funds in the first quarter
                  of 2010 and the cash replenishment expected from completing the sale of PNC Global
                  later in the year.

                  While staff reviewed PNC’s latest proposal, then-FDIC Chairman Bair requested FRB’s
                  support for FDIC’s position that PNC issue $4 billion of common stock. The additional
                  capital raise that FDIC sought to require would have limited the decrease in PNC’s Tier 1
                  Capital cushion resulting from CPP repayment, reflecting the concern that then-Chairman
                  Bair expressed to SIGTARP about protecting FDIC’s exposure to TLGP.

                  Ultimately, regulators, including FDIC, agreed to allow a smaller offering, with
                  the overallotment option, under the condition that PNC commit to additional asset
                  sales should key capital ratios fall below minimum levels. PNC agreed to
                  backstop the maintenance of its regulatory capital ratios – including its Tier 1
                  Common ratio – until June 30, 2011, with the commitment to sell common equity
                  or assets as part of its CPP repayment terms.


SIGTARP 11-005                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                54




                  PNC Approved for Repayment but Understanding Differed on the
                  Role of the Overallotment Option
                  On the evening of February 1, 2010, PNC submitted a revised proposal specifying
                  that the overallotment option, if exercised, would serve as a backstop to the sale
                  of PNC Global. FRB and FDIC
                  worked to develop language for the        PNC Proposal 6 (Feb. 1, 2010)
                  maintenance of PNC’s regulatory           • $3.0 billion common issuance at 1:2
                  capital ratios and to ensure a clear      • $1.6 billion sale of PNC Global at 1:1*
                  understanding of the linkage                     $0.5 billion post-tax profit
                                                                   $1.1 billion goodwill reduction
                  between PNC’s debt issuance and its • $1.5-2.0        billion debt issuance (to maintain
                  liquidity given the lag between              liquidity)
                  TARP repayment and the closing of         • Maintain Tier 1 Common, Leverage, or Tier
                                                               1 ratios through 6/30/11
                  PNC Global.
                                                                *Backstop to PNC Global sale:
                  Early on February 2, 2010, BNY                    • $0.45 billion overallotment option at 1:2
                                                                    (potentially exercised)
                  Mellon announced that it would                    OR
                  acquire PNC Global. That day, an                  • Additional equity raise and/or asset sales
                  FDIC email indicated that then-                   at 1:1
                  Chairman Bair spoke with Mr. Rohr
                  and was comfortable with repayment as long as the overallotment option was
                  filled. Then-Chairman Bair confirmed to SIGTARP that PNC called her and
                  “personally assured [her] they would exercise” the overallotment option.
                  According to FRB, similar communications took place between PNC and FRB.
                  PNC informed SIGTARP that the bank did not intend to suggest that it was in a
                  position to commit the underwriters to exercise the option. As previously
                  discussed, the overallotment is an option granted to the underwriter by the
                                                                             company offering shares. While
                    PNC Proposal 7 (Feb. 2, 2010)*                           the option creates an opportunity
                    • $3.0 billion common issuance at 1:2 (plus              to sell more shares than originally
                       overallotment option)                                 planned, it also serves to protect
                    • $1.6 billion sale of PNC Global at 1:1 (may be         underwriters by ensuring access to
                       reduced if overallotment option exercised)
                           $0.5 billion post-tax profit                     additional shares at the offering
                           $1.1 billion goodwill reduction                  price in the event that shares are
                    • $1.5-2.0 billion debt issuance (to maintain            oversold and their price increases.
                       liquidity)
                    • Sell assets and/or raise equity if Tier 1              PNC told SIGTARP that while it
                       Common, Leverage, or Tier 1 ratios fall               expected PNC’s underwriters to
                       below internal minimums before 6/30/11                exercise the overallotment option,
                    *Includes terms cited in PNC’s Feb. 1 proposal           the decision was ultimately at the
                       and Feb. 2 email to regulators                        discretion of the underwriter and
                                                                             thus, never within PNC’s control.

                  Later on February 2, a PNC executive re-sent the previous day’s written
                  repayment proposal, and listed in the email among “terms agreed to/confirmed
                  this morning,” PNC’s agreement to use its “best efforts” to exercise the
                  overallotment. That afternoon, FRB approved the repayment request, and within


SIGTARP 11-005                                                                                  September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                     55




                  a few hours, PNC publicly announced that it had reached agreement with
                  regulators to repay TARP and commenced its public offering priced at $54 per
                  share. Through discussions with PNC, regulators understood that the
                  $450 million overallotment would be exercised if demand was sufficient. Despite
                  a strong initial response allowing PNC to raise $3 billion in common equity and
                  $2 billion in debt, a drop in PNC’s share price from $54 to $51 over the next few
                  days caused the underwriters conducting the offering to delay filling the
                  overallotment option, which they had 30 days to exercise.

                  At the time, regulators expressed frustration that the overallotment option was not
                  filled immediately after the offering. However, FRB informed SIGTARP that
                  there was no requirement that PNC exercise the option prior to redemption. PNC
                  also told SIGTARP that it made clear to its underwriters that the bank wanted the
                  overallotment option to be exercised, and encouraged them to exercise the option,
                  even if doing so somewhat lessened the underwriters’ profit.

                  On February 10, 2010, PNC notified regulators that it repaid its CPP funds to
                  Treasury. A few hours later, an FDIC official inquired with PNC about the status
                  of the overallotment, noting that Mr. Rohr’s commitment to then-Chairman Bair
                  regarding the overallotment option was crucial to the agency’s support for PNC’s
                  repayment. FDIC and PNC held a conference call to ensure a common
                  understanding of the overallotment process and the authority granted to the
                  underwriter in deciding whether to exercise the overallotment option. The price
                  of PNC shares gradually rose and starting February 26, 2010, reached daily highs
                  of at least $54. On March 4, 2010, one day before the overallotment option was
                  set to expire, PNC’s underwriters exercised the option, allowing PNC to issue an
                  additional $450 million of common stock. As a result, through the offering and
                  the exercise of the overallotment option, PNC issued a total of nearly $3.5 billion
                  in common stock in connection with its $7.6 billion TARP repayment.




SIGTARP 11-005                                                                         September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                              56




                         Capital Quality Improved Among Bank of
                         America, Citigroup, Wells Fargo, and PNC, but
                         Pressures Remain
                         The public equity offerings in support of Bank of America’s, Citigroup’s, and
                         Wells Fargo’s TARP repayments each rank among the 10 largest in U.S. history,
                         with Bank of America’s and Citigroup’s comprising two of the top three.
                         Combined, the offerings totaled $49.1 billion in new common stock, including
                         stock raised through the exercise of overallotment options.

                         The issuances boosted each institution’s Tier 1 Common ratio – a measure of the
                         capital that provides the most loss absorption capacity – at the end of 2009. A
                         few months after Bank of America, Wells Fargo, and Citigroup exited, PNC’s
                         $3.5 billion common stock issuance in support of its TARP repayment had a
                         similar effect on the bank’s Tier 1 Common ratio. As of the second quarter of
                         2011, the capital ratios of Citigroup, Wells Fargo, and PNC have improved to
                         varying degrees. Citigroup has seen the most improvement to its Tier 1 Common
                         ratio since first receiving TARP funds in late 2008, aided by the exchange of
                         preferred shares held by both Treasury and private investors to common stock in
                         2009, in addition to the common equity Citigroup raised in connection with
                         TARP repayment later that year.62 However, Bank of America’s Tier 1 Common
                         ratio has declined recently, reflecting in part losses of about $8.8 billion reported
                         by the institution during the second quarter of 2011. To date, the same ratio for
                         Wells Fargo and PNC has maintained a positive trajectory since the institutions
                         repaid TARP. Figure 9 shows the Tier 1 Common ratios of all four institutions
                         from the first quarter of 2009 through the second quarter of 2011.




62
     Citigroup also sold off a number of non-core businesses through its “Citi Holdings” division, reducing the amount of
     assets the institution held by $128 billion in 2010.


SIGTARP 11-005                                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                        57



FIGURE 9
TIER 1 COMMON RATIOS OF BANK OF AMERICA, CITIGROUP, WELLS FARGO, AND PNC
          Percent
             14


             12


             10

                                                                                                                                   Bank of America
               8
                                                                                                                                   Citigroup
                                                                                                                                   Wells Fargo
               6
                                                                                                                                   PNC

               4


               2


               0
               2009 Q1    2009 Q2    2009 Q3     2009 Q4    2010 Q1    2010 Q2    2010 Q3   2010 Q4   2011 Q1   2011 Q2




Source: SIGTARP analysis of Bloomberg data.
Note: Quarterly data reflect the Tier 1 Common equity ratio at the end of each quarter.




                             While the quality of capital improved with TARP repayment, each institution’s Tier 1
                             Capital ratio – which includes both preferred and common equity elements – initially
                             declined as TARP capital was not replaced dollar for dollar. In recent quarters, the Tier 1
                             Capital ratios of Citigroup, Wells Fargo, and PNC have edged above pre-repayment
                             levels, though Bank of America’s remains lower. According to FDIC, to varying
                             degrees, each institution’s capital base remains pressured by mortgage-related costs
                             associated with credit, servicing, and litigation, along with recent uncertainty in European
                             markets. Figure 10 on the following page shows the Tier 1 Capital ratios of all four
                             institutions from the first quarter of 2009 through the second quarter of 2011.




SIGTARP 11-005                                                                                                            September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                                              58




FIGURE 10
TIER 1 CAPITAL RATIOS OF BANK OF AMERICA, CITIGROUP, WELLS FARGO, AND PNC
            Percent
           16

           14

           12

           10
                                                                                                                                      Bank of America
             8                                                                                                                        Citigroup

             6                                                                                                                        Wells Fargo
                                                                                                                                      PNC
             4

             2

             0
             2009 Q1      2009 Q2      2009 Q3      2009 Q4      2010 Q1      2010 Q2   2010 Q3   2010 Q4   2011 Q1   2011 Q2



Source: SIGTARP analysis of Bloomberg data.
Note: Quarterly data reflect the Tier 1 Capital ratio at the end of each quarter.




SIGTARP 11-005                                                                                                                  September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                        59




                  Conclusions
                  In the first several months of TARP, Treasury invested approximately
                  $200 billion in financial institutions under terms that, with certain exceptions,
                  prohibited repayment for three years. Despite the dramatic efforts by the
                  Government to inject this capital, by early 2009, the market still lacked
                  confidence in some of the nation’s largest financial institutions and some TARP
                  banks complained of a TARP stigma. On February 17, 2009, the American
                  Recovery and Reinvestment Act of 2009 removed the three-year restriction, and
                  in the following weeks, some TARP recipients proposed to repay Treasury and
                  exit TARP. With encouragement from Treasury, and in an effort to ramp back
                  Government ownership in these institutions, Federal banking regulators, including
                  FRB, FDIC, and OCC, scrambled to develop criteria and guidance to evaluate a
                  bank’s TARP exit proposal.

                  On June 1, 2009, FRB issued TARP repayment guidance specific to SCAP
                  institutions – the large banks subject to the stress tests conducted by regulators in
                  early 2009. Approximately 80% ($163.5 billion) of all CPP funds went to 17
                  SCAP banks. The June guidance focused on capital – specifically, the TARP
                  recipient’s ability to satisfy requirements such as demonstrating access to equity
                  markets by issuing new common stock. FRB officials told SIGTARP that the
                  amount of common stock each institution was required to raise was driven in part
                  by the results of the recently completed stress tests. Based on the June guidance,
                  the SCAP institutions that met the stress test capital targets became eligible to
                  repay TARP, and nine did so on June 17, 2009. The remaining eight SCAP
                  institutions in TARP, which included some of the nation’s largest banks, such as
                  Bank of America, Citigroup, Wells Fargo, and PNC, were viewed by regulators at
                  that time as weaker than those that had been permitted to repay in June.
                  Regulators decided that these remaining SCAP banks in TARP needed to meet
                  stricter criteria before regulators would consider their TARP exit requests.

                  Revised guidance issued by FRB and developed in consultation with Treasury and
                  the other regulators in November 2009 offered the remaining SCAP institutions in
                  TARP an option for expedited repayment of TARP funds. The November
                  guidance provided that subject to satisfying SCAP requirements, the remaining
                  institutions “may be permitted” to repay all or part of Treasury’s TARP capital if
                  they “issue at least $1 in new common equity for every $2” in TARP repaid,
                  referred to as the “1-for-2” provision. FRB and FDIC agreed that the 1-for-2 was
                  a minimum requirement for expedited repayment, and that some institutions, such
                  as Citigroup, would need to raise additional common stock beyond the 1-for-2.

                  In developing the 1-for-2 provision, regulators were focused on the ability of the
                  institution to absorb losses once Government support through TARP was
                  removed. An FRB official told SIGTARP that this ratio was based upon the
                  results of the stress tests, which gave FRB insight into the level of capital required


SIGTARP 11-005                                                                           September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                      60




                  to buffer the SCAP institutions in the event of particularly adverse market
                  conditions. FRB Governor Tarullo, Chairman of FRB’s Committee on Bank
                  Supervision, told SIGTARP that the regulators agreed on a public capital raise
                  requirement to make sure that post-TARP the institutions were effectively
                  functioning market intermediaries that could stand up to adverse conditions. He
                  added that one lesson of the financial crisis was that the markets primarily cared
                  about common equity, rather than other types of capital, and that FRB would not
                  allow an institution to repay TARP without it having enough capital to absorb
                  losses.

                  Shortly after FRB issued the November 2009 guidance, some of the largest
                  remaining TARP institutions – Bank of America, Wells Fargo, and PNC – sought
                  expedited repayment, but balked at meeting the requirement of a 1-for-2 common
                  stock issuance, seeking instead to combine a smaller common stock issuance with
                  other methods of raising capital, such as selling assets and issuing employee
                  stock, that remove sources of future revenue or do not provide market validation.
                  Citigroup, which was required to issue new common stock beyond the 1-for-2,
                  also initially submitted proposals that fell short of regulators’ expectations. Bank
                  of America, Citigroup, and Wells Fargo ultimately repaid TARP investments in
                  December 2009, followed soon after by PNC. For these institutions, the path to
                  TARP repayment was far more complex and contentious than it had been for the
                  institutions that repaid in June 2009, revealing both strengths and weaknesses in
                  the TARP exit process.

                  SIGTARP found that interagency sharing of data, vigorous debate among
                  regulators, and hard-won consensus increased the amount and improved the
                  quality of the capital that SCAP institutions were required to raise to exit TARP.
                  FRB was the primary regulator for these institutions and was responsible for
                  recommending to Treasury whether or not a company should be allowed to repay.
                  FRB agreed to consult with FDIC and OCC, and often with Treasury, on
                  repayment proposals. That consultation often generated both conflict and
                  frustration due to varied and occasionally conflicting policy approaches. FDIC,
                  exposed through its deposit insurance fund and its emergency lending program,
                  was by far the most persistent in insisting that banks raise more common stock.
                  The checks-and-balances that resulted from this interagency coordination helped
                  to ensure that the nation’s largest financial institutions were better capitalized
                  upon exiting TARP than prior to TARP. However, three aspects of the TARP exit
                  process serve as important lessons learned from the financial crisis.

                  First, Federal banking regulators were prepared to and did relax the revised
                  repayment criteria only weeks after that criteria had been established, bowing at
                  least in part to a desire to ramp back the Government’s stake in financial
                  institutions and to pressure by institutions seeking a swift TARP exit to avoid
                  executive compensation restrictions and the stigma associated with TARP
                  participation. The large financial institutions seeking to exit TARP were notably


SIGTARP 11-005                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                     61




                  persistent in their efforts to resist regulatory demands to issue common stock,
                  seeking instead more creative, cheaper, and less sturdy alternatives that provide
                  less short- or long-term loss protection than new common stock. Some SCAP
                  institutions pushed back against the 1-for-2 common stock provision, seeking to
                  minimize the dilution to shareholders that would result from a surge of new
                  common shares and, in at least one case, warning of possible failed public
                  offerings that might erode market confidence. To varying degrees, regulators
                  bent to these concerns, relaxing the repayment requirement by allowing banks to
                  replace some amount of new common stock issuance with other actions such as
                  asset sales or the issuance of trust preferred securities or employee stock.
                  Because the regulators failed to adhere to FRB’s clearly and recently established
                  requirements, the process to review a TARP bank’s exit proposal was ad hoc and
                  inconsistent.

                  Second, by not waiting until the banks were in a position to meet the 1-for-2
                  provision entirely with new common stock, there was arguably a missed
                  opportunity to further strengthen the quality of each institution’s capital base to
                  protect against future losses without diminishing future revenues. Despite the fact
                  that the regulators had established the 1-for-2 minimum weeks before as
                  necessary for each bank to absorb losses under adverse market conditions, the
                  discussion quickly switched to analysis of how much each bank could raise in
                  new common stock during a frenzied period where each of these TARP banks
                  wanted to exit at that time based in part on news that other large banks were
                  exiting TARP. Concerned about a lack of market confidence that might result
                  from being the last large bank to exit TARP, and executive compensation
                  restrictions, banks argued that the market would not support a 1-for-2 common
                  stock issuance. Meanwhile, regulators feared that a failed offering would have
                  devastating consequences.

                  Rather than wait until the markets could bear a 1-for-2 common stock issuance,
                  the regulators accepted repayment terms that were based on what the market
                  could bear at that time. During these discussions, FDIC remained a holdout,
                  arguing that the 1-for-2 provision had to be met with only new common stock.
                  For example, regarding Bank of America’s TARP exit, then-FDIC Chairman Bair
                  told SIGTARP that “the argument [FRB and OCC] used against us – which
                  frustrated me to no end – is that [Bank of America] can’t use the 2-for-1 because
                  they’re not strong enough to raise 2-for-1. That just mystified me. The point was
                  if they’re not strong enough, they shouldn’t have been exiting TARP.” However,
                  FRB Governor Tarullo told SIGTARP that it was not about Bank of America’s
                  strength, but instead about how much the market could absorb at that time. Then-
                  FRB Vice Chairman Kohn also stated that FRB wanted to push Bank of America
                  and Citigroup but was concerned that “if they went out for something and didn’t
                  get it, it would be a vote of no confidence.” The institutions arguably missed an
                  opportunity to wait until the market could absorb a 1-for-2 common stock



SIGTARP 11-005                                                                        September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                           62




                  issuance, which would have had long lasting consequences in further
                  strengthening the quality of their capital base.

                  Third, SIGTARP also found that Treasury encouraged TARP banks to expedite
                  repayment, opening Treasury to criticism that it put accelerating TARP repayment
                  ahead of ensuring that institutions exiting TARP were sufficiently strong to do so
                  safely. Secretary Geithner told SIGTARP that putting pressure on firms to raise
                  private capital was part of a “forceful strategy of raising capital early” and “We
                  thought the American economy would be in a better position if [the firms] went
                  out and raised capital.” Treasury’s involvement was also more extensive than
                  previously understood publicly. In testimony before Congress, Treasury officials
                  repeatedly explained that regulators decide when it is appropriate for a bank to
                  repay Treasury. However, while regulators negotiated the terms of repayment
                  with individual institutions, Treasury hosted and participated in critical meetings
                  about the repayment guidance, commented on individual TARP recipient’s
                  repayment proposals, and in at least one instance urged the bank (Wells Fargo) to
                  expedite its repayment plan.

                  The result was nearly simultaneous repayments by Bank of America, Wells
                  Fargo, and Citigroup in an already fragile market. Bank of America’s offering of
                  $19.3 billion was the largest ever common stock offering in the United States.
                  The combined repayments of the three banks involved $49.1 billion in new
                  common stock offerings in a span of two weeks (with PNC to follow with a
                  $3.5 billion offering), despite warnings that large equity offerings might be too
                  much for the market to bear. While none of the offerings failed, Citigroup
                  exercised only a portion of its overallotment option and later complained that
                  Wells Fargo’s simultaneous offering sapped demand for Citigroup’s stock.

                  The lessons of the financial crisis and the events surrounding TARP repayments
                  and exit demonstrate the importance of implementing strong capital requirements
                  and holding institutions strictly accountable to those requirements. Some of the
                  nation’s largest financial institutions had too little capital before the last crisis, a
                  fact that not only contributed to the crisis itself but also necessitated the
                  subsequent bailouts. While regulators leveraged TARP repayment requirements
                  to improve the quality of capital held by the nation’s largest financial institutions
                  in the wake of the financial crisis, they relaxed those requirements shortly after
                  establishing them. Whether these institutions exited TARP with a strong and
                  high-quality capital structure sufficient to absorb their own losses and survive
                  adverse market conditions without further affecting the broader financial system
                  remains to be seen.

                  Federal banking regulators, along with Treasury, bear responsibility for ensuring
                  that the nation’s largest and systemically important financial institutions hold
                  enough high-quality capital to absorb future losses and maintain their viability in
                  the event of a possible future severe shock to the financial system. The Dodd-


SIGTARP 11-005                                                                             September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                     63




                  Frank Wall Street Reform and Consumer Protection Act (“Dodd-Frank Act”)
                  includes provisions designed to address the quality of capital held by banks, such
                  as prohibiting newly issued trust preferred securities from inclusion in Tier 1
                  Capital calculations. In addition, the Dodd-Frank Act provides that the Financial
                  Stability Oversight Council has the authority to recommend heightened capital
                  standards for companies designated as systemically significant and provides for
                  an orderly liquidation authority.

                  There will always be tension between the protection of the greater financial
                  system through robust capital requirements and the desire of individual financial
                  institutions to maximize profits and shareholder returns. While striking the right
                  balance is no easy task, regulators must remain vigilant against institutional
                  demands to relax capital requirements while taking on ever more risk. In a recent
                  speech, Governor Tarullo acknowledged that regulators had historically approved
                  “increasingly diluted forms of capital under political pressures,” and warned of
                  the “slippery slope effect” that results from allowing lower quality capital to
                  comprise an ever-increasing portion of a bank’s capital structure.

                  Today, some institutions remain too big, too interconnected, and too essential to
                  the global financial system such that their failure or severe distress could
                  potentially trigger serious consequences to the broader economy. Unless and until
                  such institutions, either on their own accord or through regulatory pressure or
                  requirements, are restructured, simplified, and maintain adequate capital to absorb
                  their own losses, they will pose a grave threat to the entire financial system. The
                  greater financial system’s need for protection against the failure of those
                  institutions in the next possible downturn is particularly acute.




SIGTARP 11-005                                                                         September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                        64




Management Comments
In its management response, which is reproduced in full in Appendix G, FRB notes that it carefully and
thoroughly analyzed requests to repay TARP and that it put limits on the extent to which institutions were
allowed to substitute asset sales for common equity issuance. FRB also notes that common stock issued
through an employee stock compensation plan improves an institution’s capital structure in the same way as
a public offering of common stock.

FDIC did not provide a formal response to the report because unless there are recommendations for agency
action or there are factual errors of consequence that FDIC believes require correction, it does not typically
provide a formal written response to an invitation to review a document in advance of its publication.

In its management response, also reproduced in full in Appendix G, OCC agrees with SIGTARP’s overall
conclusion regarding the importance of implementing strong capital requirements and holding institutions
accountable to such requirements. However, OCC strongly disagrees with SIGTARP’s conclusion that the
repayment process was ad hoc and inconsistent because the regulators failed to adhere to FRB’s
requirements, arguing that the flexibility to deviate somewhat from the guidance was pragmatic and
necessary, and produced successful results. OCC also disagrees with SIGTARP’s conclusion that there was
a missed opportunity to further strengthen each institution’s capital base, on the grounds that it believes
waiting for better repayment terms would have been a riskier strategy than moving forward with the equity
issuances.

In its management response, also reproduced in full in Appendix G, Treasury strongly agreed with
SIGTARP’s conclusion that interagency coordination improved the terms of TARP repayment. Treasury
also notes that its involvement in the TARP exit process was motivated by a belief that stabilizing the
financial system depended upon the nation’s largest financial institutions being able to raise private capital
again, and that postponing the common stock offerings associated with repayment could have risked
undermining investor confidence.




SIGTARP 11-005                                                                           September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                     65




Appendix A – Scope and Methodology
We performed this audit under the authority of Public Law 110-343, as amended, which also incorporates
the duties and responsibilities of inspectors general under the Inspector General Act of 1978, as amended.
SIGTARP undertook this audit to examine the process used by Treasury and regulators to approve the
nation’s largest financial institutions to repay Treasury and exit TARP. Our specific reporting objectives
were to determine Treasury’s role in the TARP repayment process and the extent to which Federal banking
regulators have consistently coordinated and applied TARP repayment criteria for banks exiting TARP. We
performed work at Treasury, FRB, FDIC, OCC, and OTS in Washington, D.C. We also conducted field
interviews with current and former Government officials and bank executives in California, Florida, and
New York. Our audit work was conducted between February 2010 and July 2011. The scope of this audit
covered the 13 TARP repayments completed by December 31, 2010, by bank holding companies stress
tested under SCAP.

To determine the extent to which Federal banking regulators consistently coordinated and applied TARP
repayment criteria, we reviewed the Emergency Economic Stabilization Act of 2008, the American
Recovery and Reinvestment Act of 2009, general securities purchase agreements and term sheets for CPP
investments, Treasury’s TARP transaction reports, TARP repayment guidance issued by Treasury and FRB,
and repayment request evaluation guidance produced by FRB. We reviewed available FRB, FRBNY, FRB
Richmond, FRB San Francisco, FRB Cleveland, FDIC, and OCC documentation, including analyses,
documents, meeting minutes, emails, and repayment approvals for all 13 institutions covered in this audit, as
available. We also reviewed financial institution repayment proposals, board minutes, news releases, and
SEC filings pertaining to TARP repayments. We interviewed FRB Governor Daniel Tarullo, former FRB
Vice Chairman Donald Kohn, former FDIC Chairman Sheila Bair, former Comptroller John Dugan, and
Treasury Secretary Timothy F. Geithner as well as other senior officials at Treasury, FRB, FRB San
Francisco, FDIC, and OCC to understand the process developed by Federal banking regulators and its
implementation. We also spoke with the chief executive officers of Bank of America, Citigroup, and Wells
Fargo, former executives of Bank of America and Wells Fargo, and senior officials of PNC to obtain their
views on the repayment process.

To determine Treasury’s role in the TARP repayment process, we reviewed statements and responses
provided by Secretary Geithner and former Assistant Secretary Herbert Allison to Congress. We
interviewed the Secretary and the former Assistant Secretary, FRB Governor Tarullo, former FRB Vice
Chairman Kohn, former FDIC Chairman Bair, and former Comptroller Dugan as well as senior officials at
Treasury, FRB, FRB San Francisco, FDIC, and OCC to understand the role of Treasury in TARP
repayments. We also spoke with chief executive officers of Bank of America, Citigroup, and Wells Fargo,
former executives of Bank of America and Wells Fargo, and senior officials of PNC to understand the
nature of their contact with Treasury regarding TARP repayment. Additionally, we reviewed available
Treasury, FRB, FDIC, OCC, and financial institution documentation pertaining to Treasury involvement in
the repayment process.

SIGTARP conducted this performance audit in accordance with generally accepted government auditing
standards prescribed by the Comptroller General of the United States. Those standards require that
SIGTARP plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis



SIGTARP 11-005                                                                         September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                      66




for findings and conclusions based on the audit objectives. SIGTARP believes that the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit objectives.

Limitations on Data
SIGTARP relied upon Treasury and regulators to identify and provide email communication or documents
related to TARP repayments. It is possible that the documentation provided by agencies did not reflect a
comprehensive response to SIGTARP’s documentation requests, potentially limiting the review.
Additionally, FRB objected to the inclusion of a significant amount of text on the grounds that it was
confidential and that disclosure might, among other things, affect FRB’s ability to maintain open
communication with supervised financial institutions. SIGTARP respectfully disagrees with FRB’s
prediction of harm, but out of an abundance of caution, has removed some of the text, while reaching
agreement with FRB on the inclusion of other portions. The exclusion of certain text somewhat limits the
depth of information included in the report.

Use of Computer-Processed Data
To perform this audit, we used data provided by Treasury to report on TARP transaction amounts and dates.
To assess the extent to which Treasury generated reliable data, we reviewed the November 2010
Government Accountability Office (“GAO”) financial audit of Treasury’s Office of Financial Stability
(“OFS”) financial statements for fiscal years 2010 and 2009. In GAO’s opinion, OFS’ fiscal years 2010 and
2009 financial statements for TARP were fairly presented in all material respects. Therefore, SIGTARP
found nothing material that would impede the use of TARP transaction report data to determine TARP
investment and repayment amounts and dates. We also used data from Bloomberg Professional to analyze
historical public equity offerings and the Tier 1 Common ratios and daily stock prices of select SCAP
institutions. Because it is among the most widely used systems for financial data, we view the information
provided by Bloomberg Professional to be the best available for purposes of our review.

Internal Controls
As part of the overall evaluation of the TARP repayment decision-making process, we examined internal
controls related to the review and approval of TARP repayment requests of SCAP institutions by regulators.

Prior Coverage
Other oversight bodies have reported on the process by which institutions exited CPP. GAO found that the
CPP repayment approval process “lacks adequate transparency,”63 and the Congressional Oversight Panel
(“COP”) noted that the repayment criteria were “opaque.”64 COP also stated that “a lack of clarity
(surrounding the repayment criteria) breeds uncertainty and instability in the financial markets and provides
a disservice to taxpayers as well as investors.”65 In another report on CPP, GAO found that Treasury does
not collect information on or monitor regulators’ repayment decisions, and therefore “has no basis for
determining whether regulators evaluate similar institutions consistently and cannot provide feedback to



63
   Government Accountability Office, Report No. 09-658, “Troubled Asset Relief Program: June 2009 Status of Efforts
   to Address Transparency and Accountability Issues,” June 17, 2009.
64
   Congressional Oversight Panel, “July Oversight Report: Small Banks in the Capital Purchase Program,” July 14, 2010.
65
   Congressional Oversight Panel, “January Oversight Report: Exiting TARP and Unwinding Its Impact on the Financial
   Markets,” January 13, 2010.


SIGTARP 11-005                                                                                       September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                      67




regulators on the consistency of their decision making.”66 To address this concern, GAO recommended that
Treasury “periodically collect and review information on the analysis supporting regulators’ decisions and
provide feedback for regulators’ consideration on the extent to which they are evaluating similar institutions
consistently.” Treasury replied that it would consider ways to address GAO’s recommendation and noted
that Treasury has facilitated meetings among regulators in the past.




66
     Government Accountability Office, Report No. 11-47, “Troubled Asset Relief Program: Opportunities Exist to Apply
     Lessons Learned from the Capital Purchase Program to Similarly Designed Programs and to Improve the Repayment
     Process,” October 4, 2010.


SIGTARP 11-005                                                                                        September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                     68




Appendix B – Role of Federal Banking Regulators
Federal Reserve Board (“FRB”): FRB administers U.S. monetary policy and has supervisory and
regulatory authority over bank holding companies; state-chartered banks that choose to join the Federal
Reserve System; the U.S. operations of foreign banking organizations; certain U.S. entities that engage in
international banking; and pursuant to the Dodd-Frank Wall Street Reform and Consumer Protection Act
(“Dodd-Frank Act”), FRB also has authority to supervise and regulate U.S. and foreign nonbank financial
companies selected by the Financial Stability Oversight Council. The Federal Reserve works with other
Federal and state supervisory authorities to promote the safety and soundness of the banking industry and
fosters the stability of the broader financial system.

Office of the Comptroller of the Currency (“OCC”): OCC, an agency within Treasury, charters,
regulates, and supervises all National Association (“N.A.”) banks. N.A. banks are federally chartered
(organized under the laws of the United States, as opposed to state statutes) and are incorporated under the
National Bank Act. OCC’s nationwide staff of examiners analyze, among other things, a bank’s portfolios,
capital, earnings, liquidity, and compliance with consumer banking laws. As of September 30, 2010, OCC
regulated more than 1,450 national banks with total assets of approximately $8.5 trillion, comprising
approximately 70% of commercial bank assets in the United States.

Federal Deposit Insurance Corporation (“FDIC”): FDIC, an independent agency of the Federal
Government, directly examines and supervises more than 4,900 banks and savings banks that are chartered
by the states and that do not join the Federal Reserve System. To protect insured depositors, FDIC responds
immediately if a bank or thrift institution fails, generally by selling the deposits and loans of the failed
institution to another institution. Pursuant to the Dodd-Frank Act, FDIC also has the authority to liquidate
failing financial companies that pose a significant risk to U.S. financial stability. FDIC also provides
deposit insurance, which guarantees the deposits in member banks, up to $250,000 per depositor.

Office of Thrift Supervision (“OTS”): Established as a bureau of Treasury on August 9, 1989, OTS
charters, examines, supervises, and regulates Federal savings associations insured by FDIC. OTS also
examines, supervises, and regulates state-chartered savings associations insured by FDIC and provides for
the registration, examination, and regulation of savings and loan holding companies and other affiliates.
Effective on July 21, 2011, the Dodd-Frank Act transfers the duties and authorities of OTS to FRB, FDIC,
and OCC, and abolishes OTS 90 days after. All OTS functions relating to Federal savings associations, all
OTS rulemaking authority for Federal and state savings associations, and the majority of OTS employees
will be transferred to OCC. OTS’ supervisory responsibility for state-chartered savings associations and
OTS employees to support these responsibilities will be transferred to FDIC; and OTS’ authority for
consolidated supervision of savings and loan holding companies and their non-depository subsidiaries will
be transferred to FRB.




SIGTARP 11-005                                                                         September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                        69




Appendix C – Additional FAQs on Capital Purchase Program
Repayment Published by Treasury in May 2009
Q1. What is the policy for returning CPP money?

Under the original terms of the CPP, banks were prohibited from repaying within the first 3 years unless
they completed a qualified equity offering. However, the provisions introduced by the American Recovery
and Reinvestment Act of 2009 indicate that once an institution notifies Treasury that it would like to repay
its CPP investment, Treasury must permit a TARP recipient to repay subject to consultation with the
appropriate Federal Banking Agency.

All institutions seeking to repay CPP will be subject to the existing supervisory procedures for approving
redemption requests for capital instruments. Supervisors will carefully weigh an institution’s desire to
redeem outstanding CPP preferred stock against the contribution of Treasury capital to the institution’s
overall soundness, capital adequacy, and ability to lend, including confirming that the institution has a
comprehensive internal capital assessment process.

The 19 BHCs that were subject to the SCAP process must have a post-repayment capital base at least
consistent with the SCAP buffer, and must be able to demonstrate its financial strength by issuing senior
unsecured debt for a term greater than five years not backed by FDIC guarantees, in amounts sufficient to
demonstrate a capacity to meet funding needs independent of government guarantees.


Q2: What will happen to the warrants that Treasury owns in these banks?

After repaying their CPP preferred stock, institutions also have the right to repurchase the warrants issued to
Treasury for their appraised market value. If an institution chooses not to repurchase the warrants, Treasury
may liquidate registered warrants. The warrants cannot be sold to an investor until the bank has had an
opportunity to repurchase them.


Q3. How will you value the warrants that you own in banks that are repaying CPP investments?

The issuer can repurchase the warrants at “fair market value,” as defined in Section 4.9 of the Securities
Purchase Agreement. Specifically, the bank wishing to repurchase warrants will hire an independent
advisor that will use standard industry practices to value the warrants and will present the offer to Treasury,
which will independently calculate its own determination of fair market value using a robust process which
includes third party input. If those values differ, then Treasury and the bank will follow the process defined
in Section 4.9 to reach a mutually agreed upon fair market value.




SIGTARP 11-005                                                                           September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                       70




Q4. How will the public know when a firm has repaid its CPP preferred or repurchased Treasury’s
warrants?

Information on CPP preferred repayments and warrant repurchases is made available online and updated
regularly in the TARP Transactions Reports. The reports can be found at
http://www.financialstability.gov/latest/reportsanddocs.html.


Q5: For CPP participants who have used the public institution transaction documents, how is the warrant
exercise price calculated?

Treasury is aware that there is some confusion around this calculation. All warrant exercise prices have
been calculated in a consistent manner, taking the average of the closing prices for the 20 trading days up to
and including the day prior to the date on which the TARP Investment Committee recommends that the
Assistant Secretary for Financial Stability approve the investment. Please note that (i) the recommendation
of the Investment Committee constitutes preliminary approval, but final approval of an investment occurs
only when the transaction documents are executed and delivered by Treasury; and (ii) a trading day is
defined as a day on which where was trading activity in a given name.




SIGTARP 11-005                                                                          September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              71




Appendix D – June 2009 and November 2009 TARP Repayment
Guidance to SCAP Institutions




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              72




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              73




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              74




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              75




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              76




Appendix E – FRB Redemption Request Decision Memo




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              77




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              78




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              79




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                        80




Appendix F – SCAP Institutions’ Exit from CPP
SCAP INSTITUTIONS’ EXIT FROM CPP
                                           CPP Investment          Date Exited CPP
Institution                                       Amount             (if applicable)
JPMorgan Chase & Co.                       $25,000,000,000                    6-17-2009
The Goldman Sachs Group, Inc.              $10,000,000,000                    6-17-2009
Morgan Stanley                             $10,000,000,000                    6-17-2009
U.S. Bancorp                                 $6,599,000,000                   6-17-2009
Capital One Financial Corp.                  $3,555,199,000                   6-17-2009
American Express Co.                         $3,388,890,000                   6-17-2009
BB&T Corp.                                   $3,133,640,000                   6-17-2009
Bank of New York Mellon Corp.                $3,000,000,000                   6-17-2009
State Street Corp.                           $2,000,000,000                   6-17-2009
Bank of America Corp.                      $25,000,000,000                  12-09-2009
Wells Fargo & Co.                          $25,000,000,000                  12-23-2009
The PNC Financial Services
                                             $7,579,200,000                   2-10-2010
  Group, Inc.
Citigroup Inc.                             $25,000,000,000                  12-10-2010
Fifth Third Bancorp                          $3,408,000,000                    2-2-2011
KeyCorp                                      $2,500,000,000                   3-30-2011
Regions Financial Corp.                      $3,500,000,000               Has not exited
SunTrust Banks, Inc.                         $4,850,000,000                   3-30-2011
GMAC (now Ally Financial)            Did not participate in CPP
MetLife                              Did not participate in TARP

Source: SIGTARP analysis of Treasury Transactions Report data, 6/22/11.




SIGTARP 11-005                                                                             September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              81




Appendix G – Management Comments from FRB, OCC,
and Treasury




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              82




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              83




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              84




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              85




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS              86




SIGTARP 11-005                                                   September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                   87




Appendix H – Audit Team Members
This review was conducted and the report was prepared under the direction of Kurt Hyde, Deputy Inspector
General for Audit and Evaluation, and Kimberley A. Caprio, Assistant Deputy Special Inspector General for
Audit and Evaluation, Office of the Special Inspector General for the Troubled Asset Relief Program.

The staff members making significant contributions to this report include Shannon Williams, Daniel
Novillo, Jean Tanaka, and Marc Geller




SIGTARP 11-005                                                                       September 29, 2011
EXITING TARP: REPAYMENTS BY THE LARGEST FINANCIAL INSTITUTIONS                                                88




SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated with the Troubled
Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form: www.SIGTARP.gov
   U            U   U                     U                        By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                  Hotline: Office of the Special Inspector General
                          for the Troubled Asset Relief Program
                          1801 L Street., NW, 3rd Floor
                          Washington, D.C. 20220


Press Inquiries
If you have any inquiries,
please contact our Press Office:                        Julie Vorman
                                                        Acting Director of Communications
                                                        Julie.Vorman@treasury.gov
                                                        202-927-1310

Legislative Affairs
For Congressional inquiries,
please contact our Legislative Affairs Office:      Lori Hayman
                                                    Director of Legislative Affairs
                                                    Lori.Hayman@treasury.gov
                                                    U                            U




                                                    202-927-8941

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov. 
                                                                         U                  U




SIGTARP 11-005                                                                                  September 29, 2011
